Office of Inspector General


December 31, 2012

MEMORANDUM

TO:              USAID/El Salvador Mission Director, Kirk Dalhgren

FROM:            Regional Inspector General/San Salvador, Jon Chasson /s/

SUBJECT:         Stage 2 Risk Assessment of El Salvador’s Ministry of Environment and Natural
                 Resources (Report No. 1-519-13-001-S)

This memorandum transmits our final report on the subject risk assessment and includes
risk-mitigating measures for your review

This risk assessment is not an audit but contains risk mitigation measures to assist in mitigating
risk for USAID/El Salvador and to strengthen the host-country systems of the Ministry of
Environment and Natural Resources of El Salvador and other applicable government
institutions.

Because we request no management comments on the risk mitigation measures suggested, the 

Audit Performance and Compliance Division will not track final action.


I appreciate the cooperation and courtesy extended to us throughout the review. 





U.S. Agency for International Development
Embajada Americana
Urb. y Blvd Santa Elena
Antiguo Cuscatlan, Depto. La Libertad
San Salvador, El Salvador
Tel. 503-2501-2999 • Fax 503-2228-5459
http://oig.usaid.gov/
CONTENTS 

Summary...................................................................................................................................... 1 


Risk Assessment Results ......................................................................................................... 3 


     Management Control............................................................................................................... 3 

     Human Resources .................................................................................................................. 5 

     Budgeting ................................................................................................................................ 7 

     Accounting and Financial Reporting ....................................................................................... 8 

     Cash........................................................................................................................................ 9 

     Procurement......................................................................................................................... 11 

     Assets Management ............................................................................................................. 13 

     Payroll ................................................................................................................................... 15 

     Information Systems ............................................................................................................. 16 

     Audit ...................................................................................................................................... 19 

     Compliance With Local Laws and With Donor Agreements .................................................. 21


Appendix I - Scope and Methodology..................................................................................... 24 


Appendix II – Flow of Funds Under the Two Types of Agreements 

Being Considered ..................................................................................................................... 29 


Appendix III – Technical Capacity Assessment .................................................................... 31 


Appendix IV – Public Financial Management Risk Assessment 

Framework Questionnaire ....................................................................................................... 34 





Abbreviations

The following abbreviations appear in this report:

ADS             Automated Directives System
IPR             Implementation and Procurement Reform
IT              Information Technology
LACAP           Law on Acquisition and Contracts
                (Ley de Adquisiciones y Contrataciones de la Administración Pública)
MARN            Ministry of Environment and Natural Resources
                (Ministerio de Medio Ambiente y Recursos Naturales)
PFM             Public Financial Management
SAI             Supreme Audit Institution
SUMMARY 

Under the USAID Forward initiative, missions are encouraged to deliver foreign assistance
through host-country systems to improve aid effectiveness and sustainability. As noted in
Agency guidance, Automated Directives System 220, USAID’s assistance is most effective
when it can work through partner-country public financial management (PFM) systems, rather
than around them, to ensure that the aid reinforces the accountability of a government to its
people. This use of host nation systems is central to the USAID Forward Implementation and
Procurement Reform (IPR) effort.

Currently, USAID/El Salvador is developing a Country Development Cooperation Strategy that
recognizes the importance of promoting IPR in El Salvador. El Salvador’s Ministry of
Environment and Natural Resources (MARN) showed interest in directly participating in IPR
through a project to restore ecosystems. The project seeks to enhance ecosystems’ resilience
through biodiversity conservation in forests and wetlands.

In accordance with ADS Chapter 220, before initiating this program USAID/El Salvador used the
Public Financial Management Risk Assessment Framework to assess MARN’s systems,
evaluate risk, and develop necessary risk mitigation measures. The Stage 1 assessment,
completed in November 2011, concluded that the fiduciary risk should not prevent the mission
from incorporating public sector implementation strategies in the new Country Development
Cooperation Strategy.

At the request of USAID/El Salvador, the Regional Inspector General/San Salvador initiated a
Stage 2 risk assessment of MARN. The purpose of this risk assessment was to (1) test MARN’s
PFM systems1 and validate their operations, internal controls, and day-to-day practices;
(2) identify potential vulnerabilities in the systems; and (3) recommend appropriate risk-
mitigating measures.

The risk assessment evaluated 23 areas of operations and internal controls of MARN and
government institutions providing direct accounting and auditing services to MARN and
determined a risk rating based on (1) the probability of negative incidents (such as control
failures) in PFM systems and (2) the potential impact on program integrity. Although some
vulnerabilities were outside MARN’s control, such as when processes are controlled by other
government institutions, a high risk rating was assessed because the vulnerabilities directly
affected MARN’s operations and programs. The risk assessment also identified institutional
strengthening actions that MARN and stakeholders might adopt to address the vulnerabilities.

During the planning phase, the mission did not define the scope of the ecosystem restoration
project. Therefore, our assessment included tests of MARN as an institution and all areas
potentially having an effect on the proposed project. The results of the testing are summarized
in the following table.




1
 The risk assessment also reviewed PFM systems used by MARN but maintained by other Salvadoran
Government entities, such as the Ministry of Finance, the Ministry of Customs, and SAI.

                                                                                             1
                                           Testing Results
                              AREA EVALUATED                                                   RISK RATING*
  Management Control – Institutional Risk Management                                              Critical
  Management Control - Management Ethics                                                           High
  Human Resources – Resources Management                                                           High
  Budgeting – Budget Formulation and Use of Funds                                                 Critical
  Budgeting – Reporting and Recording                                                              High
  Accounting and Reporting – Journal Entries                                                        Low
  Accounting and Reporting – Financial Reporting                                                  Critical
  Cash – Use of Funds                                                                             Critical
  Cash – Recording and Reporting                                                                    Low
  Procurement – Budget Formulation and Use of Funds                                                 Low
  Procurement – Recording and Tracking of Disbursements                                           Critical
  Assets Management – Use of Assets                                                                High
  Assets Management – Recording and Reporting                                                     Critical
  Payroll – Use of Funds                                                                            Low
  Payroll – Recording and Reporting                                                                 Low
  Systems – (MARN) Backups, Business Continuity, Physical Controls and
                                                                                                    Critical
  Passwords
  Systems – (Ministry of Finance) – Reporting and Recording                                         Critical
  Systems – (Ministry of Finance) – Backups, Business Continuity, Physical
                                                                                                    Critical
  Controls and Passwords
  Audit – Internal Audit Function at MARN                                                            High
  Audit – Financial Audit Function                                                                   High
  Compliance With Local Procurement Law                                                             Critical
  Compliance With Local Laws                                                                        Critical
  Compliance With Donor Agreements                                                                   High
 * Risk ratings are determined based on (1) the probability of negative incidents and (2) the potential impact on
 program integrity. Please refer to the methodology described in Appendix I of the report for a description of the
 various risk ratings.

The scope and methodology for this risk assessment are described in Appendix I. Flow charts
showing the reimbursement process under the two possible types of agreements that the
mission may sign with MARN appear in Appendix II. Appendix III contains the mission’s
technical capacity assessment.     The Public Financial Management Risk Assessment
Framework questionnaire is in Appendix IV.




                                                                                                                2
RISK ASSESSMENT RESULTS 

Area Evaluated                                                      Risk Rating
Management Control – Institutional risk management       Probability: Probable
Potential Impact                                                                     Critical
Program objectives not achieved                         Impact:        Significant
                            Factors Evaluated/ Vulnerabilities
Factors Evaluated:
 Institutional risk assessment and risk mitigation process
 Annual evaluations of progress toward goals

Vulnerabilities:
 MARN has not established a process for assessing, monitoring, mitigating, or managing
   organizational risks and potential impact.
 MARN does not have a process for capturing lessons learned, which is an integral part
   of every project and serves as a valuable tool for similar projects/programs.
 Government institutions use line-item budgeting rather than programmatic budgeting.
   Consequently, resource allocations do not align with targeted outputs or long-term goals.
   Through its Fiscal Policy Technical Assistance Project, USAID is supporting the
   implementation of the Medium-Term Expenditure Framework, programmatic budgeting,
   and other activities to prepare the Salvadoran Government to implement a results-
   oriented budget system.
                         MARN Institutional Strengthening Actions
 Establish an annual process to assess, mitigate, monitor, and manage its organizational
   risks and potential impact.
 Establish a process for capturing lessons learned that emerge during program
   evaluations, and ensure that these lessons are applied to future programs.
 Continue with the implementation of a performance-oriented budget approach, clearly
   linking the funding of programs to outputs and outcomes.
             Government of El Salvador Institutional Strengthening Actions
 None
                              USAID Risk Mitigation Measures
 Help MARN implement the actions noted above to strengthen the PFM system.
 Implement a fixed-amount reimbursement agreement or a cost reimbursement
   agreement with appropriate mission monitoring to ensure compliance.
 Require the use of a special account for the project, and require the Supreme Audit
   Institution (SAI) to perform a yearly audit in accordance with guidelines.




                                                                                                3
Area Evaluated                                                       Risk Rating
Management Control - Management ethics                     Probability: Probable
Potential Impact                                                                        High
Misuse or misappropriation of funds                        Impact:        Marginal
                           Factors Evaluated/ Vulnerabilities
Factors Evaluated:
 Organizational structure
 Local ethical standards and regulations
 Segregation of duties
 Process for evaluating complaints and allegations of potential fraud, waste, or abuse

Vulnerabilities:
 MARN’s policies allow the Minister to bypass the competitive hiring selection process to
   authorize the direct hiring of employees or supervisors of his choice.
 We were unable to confirm that all senior ministry staff had submitted a financial
   disclosure or declaration of interest statement as required by local transparency laws.
 Local transparency and ethics laws were revised in January 2012; however, MARN has
   not developed its own policies and procedures to guide employees on the application of
   these laws to ensure compliance.
 As required by the local transparency and ethics laws, MARN has established an
   institutional ethics committee. However, the committee has not established a process to
   log and track complaints of fraud and abuse and report them to the Government of
   El Salvador Ethics Tribunal for further investigation if required.
                         MARN Institutional Strengthening Actions
 Designate in advance all ministerial positions that are deemed politically sensitive and
   thus eligible for direct appointment by a minister; disallow direct appointment of all other
   positions.
 Obtain the missing confidential financial disclosures and declaration of interest
   statements.
 Develop policies and procedures to guide employees on the application of the local
   transparency and ethics laws.
 Direct the ethics committee to develop a process to log and track complaints and
   allegations of fraud and abuse and document the review and reporting process.
             Government of El Salvador Institutional Strengthening Actions
 Designate all positions that are deemed politically sensitive and thus eligible for direct
   appointment by a minister; disallow direct appointment of all other positions.
                              USAID Risk Mitigation Measures
 Help the Government of El Salvador and MARN implement the actions noted above to
   strengthen the PFM system.
 Implement a fixed-amount reimbursement agreement or a cost reimbursement
   agreement with appropriate mission monitoring to ensure compliance.
 Require the use of a special account for the project, and require SAI to perform a yearly
   audit in accordance with guidelines.




                                                                                                  4
Area Evaluated                                                      Risk Rating
Human Resources: Resources management                    Probability: Probable
Potential Impact                                                                      High
Mismanagement of human resources                        Impact:        Significant
                           Factors Evaluated/ Vulnerabilities
Factors Evaluated:
 Policies and procedures to manage the human resources process
 Monitoring tools to evaluate the efficiency and effectiveness of resources
 Hiring practices
 Training and capacity development

Vulnerabilities:
 MARN or the Government of El Salvador does not have a policy on salaries. However,
   MARN employees told us that the Government of El Salvador has contracted a
   consulting firm to work on a salary policy for all public employees (completion expected
   in December 2012).
 MARN does not allocate funds in its budget for any training except that available
   in-house, even though outside training may be critical to an employee’s job.
 MARN does not use tools to monitor employee performance or employee turnover.
                       MARN Institutional Strengthening Actions
 Provide training that is applicable and necessary for employees to carry out their duties.
 Establish a process for managing and monitoring its human capital.
             Government of El Salvador Institutional Strengthening Actions
 Complete the development of the salary evaluation and establish a salary policy.
                             USAID Risk Mitigation Measures
 Help the Government of El Salvador and MARN implement the actions noted above to
   strengthen the PFM system.
 Implement a fixed-amount reimbursement agreement or a cost reimbursement
   agreement with appropriate mission monitoring to ensure compliance.
 Require the use of a special account for the project, and require SAI to perform a yearly
   audit in accordance with guidelines.




                                                                                               5
Area Evaluated                                                     Risk Rating
Budgeting: Budget formulation and use of funds           Probability: Probable
Potential Impact                                                                   Critical
Misappropriation or misuse of funds                      Impact:        Material
                           Factors Evaluated/ Vulnerabilities
Factors Evaluated:
 Policies and procedures affecting budget creation and tracking
 Management controls over the budgeting process
 Restrictions on transfer of funds
 Budget deviations
 Use of special accounts
 Budget transparency and access to information

Vulnerabilities:
 At the end of the year, the Government of El Salvador has the authority to redirect the
   unspent donor funds placed in the general budget for purposes other than those
   stipulated by the donor unless the funds are designated in special accounts.
 No level of government formally solicits public opinion on budget formation, although
   informal discussions are held with think tanks, other nongovernmental organizations,
   and business associations.
                       MARN Institutional Strengthening Actions
 None
             Government of El Salvador Institutional Strengthening Actions
 Create a process for soliciting public opinion on the budget.
                            USAID Risk Mitigation Measures
 Help the Government of El Salvador implement the actions noted above to strengthen
   the PFM system.
 Implement a fixed-amount reimbursement agreement or a cost reimbursement
   agreement with appropriate mission monitoring to ensure compliance
 Require the use of a special account for the project, and require SAI to perform a yearly
   audit in accordance with guidelines.




                                                                                              6
Area Evaluated                                                 Risk Rating
Budgeting: Reporting and recording                 Probability: Probable
Potential Impact                                                                   High
Inaccurate reporting and recording                 Impact:       Marginal
                          Factors Evaluated/ Vulnerabilities
Factors Evaluated:
 Controls over accounting, recording, and reporting of budgetary items
 Controls over approvals of budgets and deviations from budgets
 Recording and reporting of budgetary items
 Budget tracking
 Segregation of duties

Vulnerabilities:
 The Institutional Financial Unit at MARN reallocated and reprogrammed some general
   budget line items without the required levels of approval.
                       MARN Institutional Strengthening Actions
 Implement policies and procedures requiring appropriate approvals before the
   reprogramming or reallocation of funds.
             Government of El Salvador Institutional Strengthening Actions
 None
                            USAID Risk Mitigation Measures
 Help MARN implement the actions noted above to strengthen the PFM system.
 Implement a fixed-amount reimbursement agreement or a cost reimbursement
   agreement with appropriate mission monitoring to ensure compliance.
 Require the use of a special account for the project, and require SAI to perform a yearly
   audit in accordance with guidelines.

Area Evaluated                                                    Risk Rating
Accounting and Reporting – Recording of journal
                                                       Probability:   Occasional
entries
Potential Impact                                                                     Low
Inaccurate reporting and recording                    Impact:         Negligible
                        Factors Evaluated/ Vulnerabilities
Factors Evaluated:
 System and manual controls over journal entries
 Segregation of duties

Vulnerabilities:
 None noted
                       MARN Institutional Strengthening Actions
   None
            Government of El Salvador Institutional Strengthening Actions
   None
                            USAID Risk Mitigation Measures
   None


                                                                                              7
Area Evaluated                                                     Risk Rating
Accounting and Reporting: Financial reporting            Probability: Frequent
Potential Impact                                                                   Critical
Inaccurate reporting and recording                       Impact:        Material
                         Factors Evaluated/ Vulnerabilities
Factors Evaluated:
 Controls over the accounting and reporting process
 Segregation of duties

Vulnerabilities:
 SAI, responsible for conducting annual financial audits of government institutions, does
   not perform systems audits of the SAFI accounting system to ensure accurate and
   reliable reporting. In the absence of system audits, the SAI should conduct alternative
   manual tests of data to validate its completeness, accuracy, and timeliness (whether
   transactions were processed during the proper period). Because the accounting system
   was developed by the Government of El Salvador, information technology (IT) audit
   testing should be thorough and frequent but has been done only twice: by MCC for an
   audit in 2006 and by SAI in 2007 as a follow-up to the MCC audit.
                         MARN Institutional Strengthening Actions
 None
             Government of El Salvador Institutional Strengthening Actions
One of the following:
 SAI: Develop the capacity to perform audits of the SAFI accounting system or at a
   minimum perform alternative manual tests to validate the system’s data for
   completeness, accuracy, and timeliness as part of its annual audit.
 Ministry of Finance: Direct internal audit group to perform annual testing of the
   accounting system.
                              USAID Risk Mitigation Measures
 Help the Government of El Salvador implement the actions noted above to strengthen
   the PFM system.
 Implement a fixed-amount reimbursement agreement or a cost reimbursement
   agreement with appropriate mission monitoring to ensure compliance.
 Require the use of a special account for the project, and require SAI to perform a yearly
   audit that includes alternative manual tests to validate the completeness, accuracy, and
   timeliness of the reports in accordance with guidelines.




                                                                                              8
Area Evaluated                                                      Risk Rating
Operations - Cash: Use of funds                          Probability: Probable
Potential Impact                                                                      Critical
Misappropriation or inefficient use of funds             Impact:        Significant
                            Factors Evaluated/ Vulnerabilities
Factors Evaluated:
 Policies and procedures over the management of financial resources
 Segregation of duties
 Cash management
 Controls over financial resources and bank accounts

Vulnerabilities:
 The Government of El Salvador utilizes an excessive number of accounts (over 1,000),
   and MARN manages 55 bank accounts, creating inefficiencies and increasing the
   likelihood of errors, misappropriation, fraud, and abuse. Currently, USAID through its
   Fiscal Policy Technical Assistance Project is supporting the implementation of a
   Treasury Single Account.
 MARN requires two signatures on all checks; however, it does not require that a high-
   ranking official sign particularly large checks or that the two signatures be those of an
   employee and his or her supervisor to serve as a form of control to mitigate the risk of
   misappropriation or fraud.
 Background checks of employees managing bank accounts are not periodically updated.
 MARN’s insurance coverage for potential losses caused by employee embezzlement
   from bank accounts is limited to only $11,000 per employee although bank account
   balances may exceed $1 million.
                        MARN Institutional Strengthening Actions
 Reduce the number of bank accounts by implementing of a Treasury Single Account.
 Establish a control requiring that checks above a certain amount require a second
   signature from a supervisor or a control requiring special approval from officials for all
   high-dollar payments above a certain threshold.
 Conduct periodic background updates on employees who manage bank accounts.
 Increase the insurance coverage for losses due to employee embezzlement from bank
   accounts to match at least the balance in the bank accounts.
             Government of El Salvador Institutional Strengthening Actions
 Reduce the number of bank accounts by implementing a Treasury Single Account.
                              USAID Risk Mitigation Measures
 Help the Government of El Salvador and MARN implement the actions noted above to
   strengthen the PFM system.
 Implement a fixed-amount reimbursement agreement or a cost reimbursement
   agreement with appropriate mission monitoring to ensure compliance.
 Require the use of a special account for the project, and require SAI to perform a yearly
   audit in accordance with guidelines.




                                                                                                 9
Area Evaluated                                                    Risk Rating
Operations - Cash: Recording and reporting               Probability: Remote
Potential Impact                                                                  Low
Inaccurate recording                                     Impact:     Negligible
                           Factors Evaluated/ Vulnerabilities
Factors Evaluated:
 Policies and procedures over bank accounts
 Controls over bank accounts and the accounting system
 Bank reconciliations
 Recording of bank activity

Vulnerabilities:
 None
                      MARN Institutional Strengthening Actions
   None
            Government of El Salvador Institutional Strengthening Actions
   None
                           USAID Risk Mitigation Measures
   None




                                                                                        10
Area Evaluated                                                     Risk Rating
Operations - Procurement: Use of funds                   Probability: Occasional
Potential Impact                                                                      Low
Misappropriation or misuse of funds                      Impact:        Negligible
                          Factors Evaluated/ Vulnerabilities
Factors Evaluated:
 Policies and procedures over the procurement cycle
 Controls over purchases and disbursements
 Segregation of duties

Vulnerabilities:
 For some selections tested, MARN violated the segregation of duties principle by having
   the same person involved in preparing requisitions, selecting vendors and paying
   vendors. Risks were somewhat mitigated by having more than one individual involved
   in the procurement process. For example, checks to pay vendors required two
   signatures.
                         MARN Institutional Strengthening Actions
 Ensure proper segregation of duties in procurement roles such as preparing a
   requisition, selecting vendors, and paying vendors.
             Government of El Salvador Institutional Strengthening Actions
 None
                             USAID Risk Mitigation Measures
 Help MARN implement the actions noted above to strengthen the PFM system.
 Implement a fixed-amount reimbursement agreement or a cost reimbursement
   agreement with appropriate mission monitoring to ensure compliance.
 Require the use of a special account for the project, and require SAI to perform a yearly
   audit in accordance with guidelines.




                                                                                              11
Area Evaluated                                                     Risk Rating
Procurement: Recording and tracking of
                                                        Probability:   Probable
disbursements
Potential Impact                                                                     Critical
Inaccurate recording and reporting of disbursements     Impact:        Significant
                           Factors Evaluated/ Vulnerabilities
Factors Evaluated:
 Systems and manual controls over the procurement cycle
 Integration of systems

Vulnerabilities:
 MARN records some purchase requisitions in the SIAF system (purchasing system) and
   others in Microsoft Excel; however, all purchases are recorded in the SAFI accounting
   system. MARN does not reconcile the data processed in the purchasing system and
   Microsoft Excel to the data processed in the accounting system to ensure accuracy and
   completeness.
 Because not all purchase requisitions are recorded in the purchasing system, MARN is
   unable to track or monitor its purchasing and payables processes, making it impossible
   to review their efficiency or effectiveness. For one sample item tested, we noted that
   MARN made one vendor payment 3.5 months late. Furthermore, the Stage 1 risk
   assessment noted that, in general, the government’s procurement process mandated by
   the Law on Acquisitions and Contracts (LACAP) was lengthy and cumbersome.
                        MARN Institutional Strengthening Actions
 Use the purchasing system for all purchase requisitions.
 Monitor the purchasing cycle for efficiency and effectiveness.
             Government of El Salvador Institutional Strengthening Actions
 None
                             USAID Risk Mitigation Measures
 Help MARN implement the actions noted above to strengthen its PFM system.
 Implement a fixed-amount reimbursement agreement or a cost reimbursement
   agreement with appropriate mission monitoring to ensure compliance.
 Require the use of a special account for the project, and require SAI to perform a yearly
   audit in accordance with guidelines.




                                                                                                12
Area Evaluated                                                    Risk Rating
Asset Management: Use of assets                        Probability: Occasional
Potential Impact                                                                     High
Inefficient use of assets                              Impact:        Significant
                           Factors Evaluated/ Vulnerabilities
Factors Evaluated:
 Management and monitoring of assets
 Physical controls over assets

Vulnerabilities:
 The annual physical inventory of assets does not include all assets in the field,
   especially those located in remote areas of the country that may be of high value, due to
   a lack of sufficient staff.
 MARN does not insure any assets other than vehicles.
                         MARN Institutional Strengthening Actions
 Conduct physical inventories of all assets annually, including those in remote locations.
 Perform a cost-benefit analysis to determine what assets should be insured, and insure
   them.
             Government of El Salvador Institutional Strengthening Actions
 None
                               USAID Risk Mitigation Measures
 Help MARN implement the actions noted above to strengthen its PFM system.
 Implement a fixed-amount reimbursement agreement or a cost reimbursement
   agreement with appropriate mission monitoring to ensure compliance.
 Require the use of a special account for the project, and require SAI to perform a yearly
   audit in accordance with guidelines.
 For project assets, include insurance requirements in the agreement and monitor MARN
   compliance.




                                                                                               13
Area Evaluated                                                       Risk Rating
Asset Management: Recording and reporting                 Probability: Probable
Potential Impact                                                                       Critical
Inaccurate reporting and recording                       Impact:         Significant
                           Factors Evaluated/ Vulnerabilities
Factors Evaluated:
 Controls over purchases of assets
 Assets recording in the registry and the general ledger

 Vulnerabilities:
 MARN implemented an assets registry in the SIAF system in 2011, but data from the old
   COAFI system is being manually rekeyed into the fixed-assets module rather than being
   uploaded directly. As of July 2012, only 70 percent of the data from the old system had
   been transferred to the new system.
 MARN did not document the results of the annual physical inventory count done in 2010;
   thus, neither inventory count sheets nor other supporting documentation was available
   for our review.
 We found no evidence of supervisory review of the reconciliation of the fixed-assets
   register and the general ledger for 2010.
 The 2010 reconciliation of the fixed-assets register and the general ledger revealed a
   difference of approximately $354,000 without any explanation or documentation of the
   resolution.
 A reconciliation of the general ledger and the fixed-assets register for 2011 had not
   been prepared as of the date of the review (June 29, 2012).
                        MARN Institutional Strengthening Actions
 Establish and enforce timelines to complete the transfer of data from the old to the new
   purchasing system.
 Document the results of the annual physical inventory with count sheets.
 Ensure that supervisory reviews are performed and documented for the reconciliation of
   the fixed-assets register and the general ledger.
 Ensure that all differences between the fixed-assets register and general ledger are
   resolved or explained with supporting documentation.
 Establish a policy requiring that reconciliations of the general ledger and the fixed-assets
   register be conducted in the proper accounting period(s).
             Government of El Salvador Institutional Strengthening Actions
 None
                             USAID Risk Mitigation Measures
 Help MARN implement the actions noted above to strengthen its PFM system.
 Implement a fixed-amount reimbursement agreement or a cost reimbursement
   agreement with appropriate mission monitoring to ensure compliance.
 Require the use of a special account for the project, and require SAI to perform a yearly
   audit in accordance with guidelines.




                                                                                                  14
Area Evaluated                                                    Risk Rating
Payroll: Use of funds                                    Probability:   Remote
Potential Impact                                                                   Low
Misappropriation or misuse of funds                     Impact:       Negligible
                           Factors Evaluated/ Vulnerabilities
Factors Evaluated:
 Payroll policies and procedures
 Segregation of duties
 Controls over time and attendance and payroll
 Controls to prevent fraud, waste, and abuse

Vulnerabilities:
 None noted
                       MARN Institutional Strengthening Actions
   None
            Government of El Salvador Institutional Strengthening Actions
   None
                            USAID Risk Mitigation Measures
   None


Area Evaluated                                                    Risk Rating
Payroll: recording and reporting                         Probability: Remote
Potential Impact                                                                   Low
Inaccurate recording and reporting                       Impact:      Negligible
                          Factors Evaluated/ Vulnerabilities
Factors Evaluated:
 Testing of payroll samples to test accuracy and timeliness
 Segregation of duties
 Accounting and recording of payroll

Vulnerabilities:
 None noted
                       MARN Institutional Strengthening Actions
   None
            Government of El Salvador Institutional Strengthening Actions
   None
                            USAID Risk Mitigation Measures
   None




                                                                                         15
Area Evaluated                                                      Risk Rating
Information Systems – MARN: Backups, contingency
                                                         Probability:   Frequent
plans, physical controls, and passwords
Potential Impact                                                                   Critical
Inaccurate reporting/recording and loss of data          Impact:        Material
                           Factors Evaluated/ Vulnerabilities
Factors Evaluated:
 Policies and procedures for information systems
 Physical safeguards for information systems
 Contingency planning
 Password controls
 Backups

Vulnerabilities:
 Systems audits provide assurance that the systems are adequately protected, that they
   provide reliable information to users, and that they are properly managed to achieve
   their intended benefits. However, MARN’s internal audit group does not perform
   systems audits.
 MARN does not have a fully developed disaster recovery plan. The current plan only
   lists the elements that the plan should have, without providing details.
 Backups are stored in a computer room located at MARN rather than off-site, placing
   them at risk if a disaster destroys MARN’s facilities.
 The public relies on MARN to provide pertinent information in case of disasters, but
   MARN does not maintain a running mirror server at an off-site location to protect its
   information in case of disaster at its main site.
                         MARN Institutional Strengthening Actions
 Ensure that information systems audits are conducted.
 Fully develop and test a disaster recovery plan.
 Maintain backups of its server offsite.
 Implement the use of an off-site mirror server or cloud storage of IT systems so that the
   Ministry can continue functioning in the wake of a disaster.
             Government of El Salvador Institutional Strengthening Actions
 None
                               USAID Risk Mitigation Measures
 Help MARN implement the actions noted above to strengthen its PFM system.
 Implement a fixed-amount reimbursement agreement or a cost reimbursement
   agreement with appropriate mission monitoring to ensure compliance.
 Require the use of a special account for the project, and require SAI to perform a yearly
   audit in accordance with guidelines.




                                                                                              16
Area Evaluated                                                       Risk Rating
Information Systems – Ministry of Finance: Reporting
                                                          Probability:   Frequent
and recording
Potential Impact                                                                    Critical
Inaccurate reporting/recording and loss of data           Impact:        Material
                            Factors Evaluated/ Vulnerabilities
Factors Evaluated:
 Systems integration
 Segregation of duties
 Application control related to the processing of data for sample selections

Vulnerabilities:
 Most government institutions use the SAFI accounting system maintained by the Ministry
   of Finance. Because the accounting system does not have modules for asset
   management or purchasing, each government institution maintains its own manual or
   automated system for assets or purchases. For instance, MARN uses the SIAF system
   to maintain assets and purchases, but this system is not integrated with the accounting
   system. Moreover, the two systems do not interface; rather, all data is keyed into both
   manually, resulting in risk of error or omission.
 The Ministry of Finance’s internal audit group has not conducted any audit of the
   information systems maintained by the ministry, including the SAFI accounting system.
   Employees at the ministry explained that system auditors had been hired recently, but
   no systems audits had been conducted as of August 24, 2012 (the date of our review).
                        MARN Institutional Strengthening Actions
 None
            Government of El Salvador Institutional Strengthening Actions
 In the short term, the Ministry of Finance should verify that data from supporting systems
   is properly uploaded to the accounting system.
 In the long term, the Government of El Salvador should upgrade the accounting system
   to include the asset management and purchasing modules.
 The Ministry of Finance should conduct systems audits.
                              USAID Risk Mitigation Measures
 Help the Government of El Salvador implement the actions noted above to strengthen
   the PFM system.
 Implement a fixed-amount reimbursement agreement or a cost reimbursement
   agreement with appropriate mission monitoring to ensure compliance.
 Require the use of a special account for the project, and require SAI to perform a yearly
   audit in accordance with guidelines and include alternative manual tests to validate the
   completeness, accuracy, and timeliness of the reports.




                                                                                               17
Area Evaluated                                                      Risk Rating
Information Systems – Ministry of Finance (Hacienda):
Backups, contingency plans, physical controls, and       Probability:   Frequent
passwords                                                                          Critical
Potential Impact
Inaccurate reporting and recording, and loss of data     Impact:        Material
                           Factors Evaluated/ Vulnerabilities
Factors Evaluated:
 Policies and procedures for information systems
 Physical safeguards for information systems
 Contingency planning
 Passwords and controls over users’ roles
 Backups

Vulnerabilities:
 The air-conditioning (AC) unit is in the same room with the server, EPS2. AC units should
   not be placed in the same room with the server because condensate from cooling
   increases the risk of water damage to the mainframe. Additionally, the mainframe server
   floor for EPS2 is not raised for protection in case of flooding.
 The door protecting the computer room is not fireproof.
 The user role sostenibilidad (support) in the SAFI accounting system has access to the
   system’s security modules. This user role is defined at the institutional level, meaning
   that users from other institutions with this role may be able to access the Ministry of
   Finance’s security modules. Access to these should be restricted to IT support at the
   Ministry of Finance.
 The accounting system does not require a strong password. The ministry’s information
   technology manual defines a strong password as one that is 15 characters long and
   includes a combination of special characters, capital letters, lowercase letters, and
   numbers.
 The ministry uses a mirror server at its customs office to store data in case of an
   emergency or disaster. However, because this site is only 23 kilometers away, a
   disaster—particularly an earthquake—could also damage the mirror server.
                         MARN Institutional Strengthening Actions
 None
              Government of El Salvador Institutional Strengthening Actions
 Protect the main servers from water damage.
 Install a fireproof door in the computer room.
 Deny the user role sostenibilidad access to security modules.
 Strengthen password rules to comply with the information systems manual.
 Use a remote location as the site for a mirror server, or use cloud storage.
                              USAID Risk Mitigation Measures
 Help the Government of El Salvador implement the actions noted above to strengthen its
   PFM system.
 Implement a fixed-amount reimbursement agreement or a cost reimbursement
   agreement with appropriate mission monitoring to ensure compliance.
 Require the use of a special account for the project, and require SAI to perform a yearly
   audit in accordance with guidelines.


                                                                                              18
Area Evaluated                                                         Risk Rating
Audit: Internal Audit Function - MARN                         Probability: Probable
Potential Impact                                                                         High
Inaccurate reporting                                          Impact:        Marginal
                          Factors Evaluated/ Vulnerabilities
Factors Evaluated:
 Audit coverage
 Independence
 Audit effectiveness and capacity

Vulnerabilities:
 The internal audit department is not independent; the Minister of Environment has
   operational control of the internal audit department and the auditors do not report directly
   to an audit committee or officials independent of the ministry.
 MARN’s internal audit procedures manual does not establish a deadline for closing
   recommendations. For example, recommendations from an audit in 2010 remain open.
                        MARN Institutional Strengthening Actions
 Establish and meet deadlines to implement audit recommendations.
             Government of El Salvador Institutional Strengthening Actions
 Develop a reporting structure requiring all ministries’ internal audit departments to have
   a higher degree of independence by reporting directly to SAI rather than to their
   respective minister.
                             USAID Risk Mitigation Measures
 Help the government and MARN implement the institutional actions noted above to
   strengthen the PFM system.
 Implement a fixed-amount reimbursement agreement or a cost reimbursement
   agreement with appropriate mission monitoring to ensure compliance.
 Require the use of a special account for the project, and require SAI to perform a yearly
   audit in accordance with guidelines.




                                                                                                  19
Area Evaluated                                                       Risk Rating
Audit: Financial Audit Function – Government of
                                                           Probability:   Probable
El Salvador (SAI)
Potential Impact                                                                      High
Inaccurate reporting                                       Impact:        Marginal
                            Factors Evaluated/ Vulnerabilities
Factors Evaluated:
 Policies and procedures
 Audit process

Vulnerabilities:
 The results of audits conducted by SAI are not available to the public, only to public
   officials.
 SAI does not establish deadlines for completing government audits. The audit report for
   MARN for the period ended December 31, 2009, was published in February 2012
   (26 months later), and the report for the period ended December 31, 2010, was
   published on May 2012 (17 months later).
 The Legislative Assembly appoints SAI officials, raising doubts about SAI’s
   independence and potentially affecting the results of audits at a time when one party
   exercises significant control over the political system.
                        MARN Institutional Strengthening Actions
 None
              Government of El Salvador Institutional Strengthening Actions
 Require that the results of audits be posted on SAI’s Web site, making them accessible
   to Salvadoran citizens.
 Establish deadlines for conducting and reporting the results of government audits.
                             USAID Risk Mitigation Measures
 Help the government implement the actions noted above to strengthen its PFM system.
 Implement a fixed-amount reimbursement agreement or a cost reimbursement
   agreement with appropriate mission monitoring to ensure compliance.
 Require the use of a special account for the project, and require SAI to perform a yearly
   audit in accordance with guidelines.
 Monitor the political environment in El Salvador; if the SAI’s independence is
   questionable, choose a private audit firm.




                                                                                              20
Area Evaluated                                                       Risk Rating
Compliance with local procurement law (LACAP)              Probability: Frequent
Potential Impact                                                                      Critical
Misappropriation or misuse of funds                        Impact:        Material
                            Factors Evaluated/ Vulnerabilities
    Factors Evaluated:
   Policies and procedures
   Bidding and vendor selection
   Contractual compliance

    Vulnerabilities:
   LACAP requires competitive bidding for purchases exceeding $53,000 but allows
    government institutions to bypass the competitive bidding requirement without giving
    them clear criteria for justifying doing so. Bypassing the competitive bidding requirement
    increases the risk of misappropriation and manipulation of the bidding process. Our
    testing revealed that MARN purchased special equipment for $1.3 million through direct
    procurement rather than competitive bidding. The justification for this direct procurement
    was inadequate because it lacked support (e.g., technical evaluation, specifications for
    equipment capacity and quality, etc.).
   The bidding period is at times too short to allow for adequate vendor participation. For
    instance, the time LACAP allows for vendor selection for purchases above $53,000 is
    from 3 to 5 days. Bidding for one sample item reviewed was only open for 1 day.
   On two purchase requisitions in our sample, language was vague, not giving specific
    criteria for the purchases.
                          MARN Institutional Strengthening Actions
   Use a competitive process rather than direct procurement to select most vendors for the
    program, and establish an appropriate approval process for noncompetitive procurement
    transactions that is properly documented.
   Establish clear criteria for justifying noncompetitive procurement transactions.
               Government of El Salvador Institutional Strengthening Actions
   None
                                USAID Risk Mitigation Measures
   Help the government and MARN implement the actions noted above to strengthen the
    PFM system.
   Implement a fixed-amount reimbursement agreement or a cost reimbursement
    agreement with appropriate mission monitoring to ensure compliance.
   Require the use of a special account for the project, and require SAI to perform a yearly
    audit in accordance with guidelines.
   Require all vendor selections for procurements above a threshold of $2,500 to be made
    through a competitive process rather than through direct procurement as mandated by
    LACAP.




                                                                                                 21
Area Evaluated                                                     Risk Rating
Compliance with local laws                              Probability: Probable
Potential Impact                                                                     Critical
Violation of local laws                                 Impact:        Significant
                           Factors Evaluated/ Vulnerabilities
Factors Evaluated:
 Policies and procedures
 Controls to prevent fraud, waste, and abuse (e.g., transparency law) and enforce laws

Vulnerabilities:
 The ethics law has the following weaknesses:
    o Complaints cannot be filed anonymously.
    o The law does not mention protection for whistleblowers.
    o The law does not provide for administrative leave while an official is under
        investigation for potential wrongdoing related to his or her duties.
    o The penalty for wrongdoing is limited to 40 times the minimum wage (about $230 a
        month), which may not be enough to deter fraudulent acts and may not compare to
        the amount of the illicit gain or harm.
 The ethics law requires the establishment of ethics boards at each government
    institution. MARN has established an ethics board; however, meetings of the board
    have not been documented. Additionally, one of the board members who represents the
    employees lives in a remote location and cannot easily participate in meetings.
 The outcomes of investigations or reviews have not been posted on the public Web site.
                          MARN Institutional Strengthening Actions
 Document meetings of the ethics board.
 Establish eligibility requirements for elected board members so that they are easily
    accessible and can attend meetings.
 Verify that the results of investigations or reviews are made public.
              Government of El Salvador Institutional Strengthening Actions
Strengthen its ethics law by:
 Allowing complaints to be filed anonymously
 Providing protection for whistleblowers
 Pegging monetary sanctions to the value of illicit gains or damages to discourage illicit
    acts
                               USAID Risk Mitigation Measures
 Help the government and MARN implement the actions noted above to strengthen the
    PFM system.
 Implement a fixed-amount reimbursement agreement or a cost reimbursement
    agreement with appropriate mission monitoring to ensure compliance.
 Require the use of a special account for the project, and require SAI to perform a yearly
    audit in accordance with guidelines.




                                                                                                22
Area Evaluated                                                    Risk Rating
Compliance with donor agreements                       Probability: Probable
Potential Impact                                                                    High
Violation of donor agreements                          Impact:         Negligible
                          Factors Evaluated/ Vulnerabilities
Factors Evaluated:
 Controls to manage donor agreements
 Policies and procedures
 Training on U.S. laws and regulations applicable to the agreements
 Controls to enforce laws applicable to the agreements

Vulnerabilities:
 MARN does not have a process for reviewing the issues raised by external and internal
   audit reports and applying them as lessons learned.
 MARN hires outside consultants rather than using its own personnel to implement
   projects funded by international donors that utilize special accounts. When those
   projects end, most consultants are not retained at MARN, which loses their knowledge.
 Interviews with MARN personnel revealed a lack of knowledge/familiarity with standard
   provisions applicable to USAID agreements.
                        MARN Institutional Strengthening Actions
 Review the results of audits conducted by external auditors, and apply lessons learned.
 Add project staff to its budget to avoid the loss of knowledge when donor funding ends.
 Provide training to familiarize all personnel with U.S. laws applicable to the agreement
   with USAID.
             Government of El Salvador Institutional Strengthening Actions
 None
                             USAID Risk Mitigation Measures
 Help MARN implement the actions noted above to strengthen its PFM system.
 Implement a fixed-amount reimbursement agreement or a cost reimbursement
   agreement with appropriate mission monitoring to ensure compliance.
 Require the use of a special account for the project, and require SAI to perform a yearly
   audit in accordance with guidelines.
 Train MARN staff with standard USAID provisions applicable to the agreement.




                                                                                              23
                                                                                  Appendix I



SCOPE AND METHODOLOGY
Scope
RIG/San Salvador conducted this risk assessment in accordance with generally accepted
government auditing standards. This risk assessment complies with the general standards in
Chapter 3 as well as with the evidence and documentation standards in Chapter 6 (paragraphs
6.79 through 6.85) of Government Auditing Standards. Those standards require that we plan
and perform the assessment to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions. We believe that the evidence obtained provides that
reasonable basis.

The purpose of this assessment was to (1) perform an in-depth assessment of vulnerabilities
noted during the Stage 1 assessment, (2) assess the control environment and identify additional
vulnerabilities and risks associated with operating directly through the MARN environment, and
(3) based on the risks and vulnerabilities identified, recommend institutional strengthening
actions to strengthen the MARN control environment and reduce the risk of wasting or misusing
U.S. Government resources.

In planning and performing the review, we assessed MARN’s and the Government of
El Salvador’s management controls related to their internal processes. The management
controls tested included controls over risk management, cash management, accounting and
financial reporting, budgeting, payroll and human resources, assets management, audit,
information systems, procurement, compliance with local and U.S. laws, and compliance with
donor agreements.

The review covered expenditures associated with the Government of El Salvador’s general
funds and programs managed by MARN from January 1, 2010, to April 30, 2012. RIG/San
Salvador conducted the risk assessment in San Salvador, El Salvador, from May 22 to
August 24, 2012.

Stage 2 Team

The Stage 2 assessment was conducted under the overall responsibility of the IPR Committee
coordinated by the mission controller. There were three teams involved in the assessment:

The Risk Assessment Team, which was responsible for conducting the fieldwork for the risk
assessment:

   Ivan Magana – Regional Inspector General Office in San Salvador - Team Leader
   Karla Hasbun – Regional Inspector General Office in San Salvador
   Juan Carlos Rivas – USAID/El Salvador, Economist, Strategic Development Office Carlos
    Milla – USAID/El Salvador Financial Analyst
   Blanca Ibarra – USAID/El Salvador Senior Acquisition and Assistance Specialist
   Omar Robles – USAID/El Salvador Financial Management Officer

The Technical Capacity Assessment Team, which was responsible for conducting the technical
evaluation of MARN’s capacity:

                                                                                            24
                                                                                       Appendix I



   Carlos Hasbun – USAID/El Salvador Environmental Team Leader
   Parviz Shahidinejad – USAID/El Salvador Senior Financial Analyst
   Mary Latino Rodriguez – USAID/El Salvador Environmental Team
   Luis Ramos – USAID/El Salvador Environmental Team

From the IPR Committee, the following members were responsible for evaluating the results of
the assessment:

   Allen Vargas – USAID/El Salvador Mission Controller
   Parviz Shahidinejad – USAID/El Salvador Senior Financial Analyst
   Michelle Jennings – USAID/El Salvador Economic Growth Officer
   Karen Hunter – USAID/El Salvador Regional Legal Advisor

Methodology
The risk assessment was conducted in compliance with ADS 220 and followed the guidance of
the Public Financial Management Risk Assessment Framework for Stage 2 prepared by USAID.
In conducting the risk assessment, we interviewed government officials at MARN, the Ministry of
Finance, Customs, and SAI to obtain an understanding of the internal processes related to the
management controls identified.

For each management control identified, we judgmentally made sample selections and tested the
controls related to the area to determine whether the controls were operating effectively. (This
assessment is not an audit; therefore, testing is appropriate for a limited sample of transactions.)

Additionally, we reviewed the Stage 1 Rapid Appraisal Risk Assessment report prepared by
USAID/San Salvador to obtain an understanding of issues raised related to Government of El
Salvador.

Analysis of Impact and Probability

Our approach for determining the risk rating of the areas of vulnerability during this Stage 2 risk
assessment included an evaluation of the impact and probability of an adverse event occurring
and affecting MARN’s operations, including the project. Impact and probability were measured
on a 1-4 scale.

Impact – The severity of an adverse event associated with a risk or combination of risks is
described below. Impact was evaluated on a 1–4 scale.

    Negligible: 1 - PFM broadly reflects good international practice. The development objective
    outcome can reasonably be assumed to be attained if conditions do not change. This rating
    indicates that strong political and management commitment to sound PFM practice is
    evident. Internal controls overall function as intended with deviations potentially having a
    financial impact that is less than significant to a program. Accountability institutions are
    mature, function routinely, and are not under threat.

    Marginal: 2 - PFM broadly reflects good international practice with some gaps or
    inefficiencies present. Political or management commitment to closing the gaps and
    eliminating inefficiencies is present. The development objective is reasonably likely to be

                                                                                                 25
                                                                                    Appendix I


   attained. Expected effects could include minor delays in attainment, minor dissatisfaction by
   stakeholders, or a nonmaterial financial impact. Noncompliance with the internal control
   framework is the exception rather than the rule, potentially having a financial impact that is
   less than material on a program. Weaknesses in accountability may be present, or
   accountability may be in an early and untested stage of development.

   Significant: 3 - Significant elements of the PFM system do not reflect good international
   practice. Political or management commitment to attaining a state of compliance with good
   international practice is inconsistent or questionable. Attainment of some of the expected
   outcomes associated with the development objective can reasonably be expected.
   Expected effects could include a major delay, limited dissatisfaction by stakeholders, and a
   material financial impact. Noncompliance with the internal control framework is likely to
   occur and may result in significant impact to the program. Weakness in accountability is
   evident. Opposition to accountability is evident among some elements in the government.

   Material: 4 - There are obvious and material divergences from good international PFM
   practice. Political and management commitment to attainment of a state of compliance with
   good international practice is the exception or entirely absent. Realization of an adverse
   event associated with this risk factor would lead to less-than-desirable outcomes. Expected
   effects include failure of the project, widespread and severe dissatisfaction by stakeholders,
   major financial losses, and extensive loss of reputation. Noncompliance with the internal
   control framework is expected to occur widely. Accountability institutions have major gaps.
   Opposition to accountability is organized or widespread and therefore expected.

Probability – The likelihood of occurrence of an adverse event associated with a risk or a
combination of risks. Probability was measured on a 1-4 scale.

   Remote: 1 - This number reflects the conclusion that there is less than a 25 percent
   probability. An adverse event associated with the risk is rare or would only occur in
   exceptional circumstances. There is little or no experience of a similar failure.

   Occasional: 2 - This number reflects a conclusion that the probability lies between 26 and
   50 percent. An adverse event associated with the risk might occur because the conditions
   for it exist, but controls exist and are effective.

   Probable: 3 - This number reflects a conclusion that the probability lies between 51 and 75
   percent. An adverse event associated with the risk likely will occur because the controls are
   inadequate or are applied inconsistently.

   Frequent: 4 - This number reflects a conclusion that the probability lies between 76 and 99
   percent. An adverse event associated with the risk is expected to occur. There is near
   certainty of occurrence because the controls do not exist or are ineffective.




                                                                                              26
                                                                                     Appendix I


                                         Figure I-1
                         Public Financial Management Risk Matrix



                  Material          High         Critical      Critical      Critical




                  Significant       High          High         Critical      Critical

         Impact


                  Marginal        Medium        Medium          High          High




                  Negligible        Low           Low          Medium       Medium


                                Remote        Occasional  Probable         Frequent
                                                    Probability

Risk Treatment

Assignment of risk to a classification of Critical, High, Medium, or Low drives the appropriate
level of treatment to mitigate the risk. Figure I-2 defines each of these scores and relates the
appropriate levels of risk mitigation suggested for each.




                                                                                              27
                                                                                        Appendix I


                                       Figure I-2
                           Suggested Risk Mitigation Treatment
 Score          Mitigation                                       Detail
               Requirement
Critical   Terminate exposure      Critical requires stringent mitigating measures only if these
           or enforce mitigating   have a high probability of success. Otherwise, we would
           measures.               recommend terminating the exposure by delivering the
                                   assistance through other means. In rare cases where an
                                   effective transfer of risk mechanism exists and is deemed
                                   effective, we will consider transfer of the risk, albeit with a risk
                                   assessment of the ability of the transferor to deliver on its
                                   obligation. (A central bank guarantee of a deposit in a local
                                   bank is an example of a transfer mechanism.) Mitigating
                                   measures are likely to include concurrent audit,
                                   reimbursement-only mechanisms, tranching, affirmative
                                   transaction     approval,     cosignature     requirements       on
                                   disbursements, and other active and continuous control
                                   features.
High       Consider terminating    High requires serious mitigating measures to treat the risk.
           exposure or             Treatment may include a wide variety of risk mitigation
           enforcing mitigating    measures that should be enforced continuously.
           measures
Medium     Consider enforcing      Medium requires mitigating measures, but these may be
           mitigating measures     periodic, such as semiannual audits or no objection
           or monitoring           processes for procurement approval. Third-party oversight,
                                   such as an arrangement with the national procurement
                                   oversight body, could be considered.
Low        Monitoring              Low requires monitoring and audit, but treatment of specific
                                   risks will not be an ex ante requirement. Routine controls
                                   and oversight are appropriate. In some cases, terms and
                                   conditions in the agreement may be sufficient, provided that
                                   performance of the terms and conditions is monitored.




                                                                                                   28
                                                                            Appendix II



FLOW OF FUNDS UNDER THE TWO TYPES OF AGREEMENTS
BEING CONSIDERED
The mission has determined that it will probably sign a fixed-amount reimbursement
agreement or a cost reimbursement agreement with MARN. Below and on the next page,
we provide the funds flows for these instruments.




    Flow of Funds Under a Fixed-Amount 

        Reimbursement Agreement 





                                                                                 USAID 
                                                                                Transfers 
              MARN                             USAID                            Funds to 
                                 Evidence 
            Completes                         Verifies           Funds           MARN 
   Output                        of Output 
             Output                           Output            Transfer        Separate 
                                  Delivery
             Delivery                         Delivery                           Project 
                                                                               Account via 
                                                                                   EFT




                                                                                    29

                                                             Appendix II



       Flow of Funds Under a 

  Cost Reimbursement Agreement 




USAID Advances Funds to MARN 
Separate Project Account via EFT 


                                    MARN Processes Payments to 
                                    Vendors from Project Account via 
                                    Check




                                  MARN Submits Voucher to
 
                               Liquidate Outstanding Advance





                                                                     30
                                                                                   Appendix III



TECHNICAL CAPACITY ASSESSMENT

A Quick Technical Assessment of the Ministry of Environment and
Natural Resources to implement the Restoration of Ecosystems
and Landscapes of El Salvador Project

A. The setting:

On May 7, 2012, MARN officially launched the National Program of Restoration of
Ecosystems and Landscapes (PREP). The PREP is consistent with the Government of El
Salvador’s National Environmental Policy (NEP), which objective is to reverse environmental
degradation and reduce vulnerability to climate change. One of the priorities of the NEP is
the inclusive restoration and conservation of ecosystems.

According to the NEP, environmental degradation in El Salvador has reached such a critical
point that meaningful action is necessary to reduce risks, support productive activities and
ensure the welfare of the population. A socially inclusive approach involving the participation
of communities is considered essential to preserve and enhance the provision of ecosystem
services by the diversity of ecosystems and species.

The current Biodiversity Strategy of El Salvador was developed in 2000. MARN has recently
started the updating of the Strategy with funds from GEF/UNDP. One of the goals of the
updating process is to align it with NEP and PREP.

B. PREP has three main components:

1. Development of climate-resilient agriculture: Recognizing that agricultural activities
represent the main land use in the country, this component seeks to begin the transition from
an agricultural sector based heavily on slash and burn practices, and intensive agrochemical
use to sustainable agricultural and livestock practices that are more resilient to the threat of
climate change. PREP pursues the development of a massive expansion of agro-forestry
and sustainable agriculture practices to prevent soil erosion, increase vegetation cover,
mitigating climate change by soil and vegetation carbon sequestration while adapting to it,
improve water flow hydrology, reduce agrochemical use, and improve conditions for
biodiversity conservation.

2. Synergistic development of physical and natural infrastructure: Physical
infrastructure in El Salvador, particularly road infrastructure, is very vulnerable to climate
variability and has been heavily impacted by the increased frequency and intensity of climate
change-related extreme weather events in the last decade. The typical response has been
more complex man-made infrastructure. Although new design specifications can reduce this
vulnerability, it implies significant costs increases. MARN and the Ministry of Public Works
(MOP) propose through PREP that combining investments in both physical and natural
infrastructure will be more cost efficient. For example, protecting watersheds with the
expansion tree cover through agroforestry and creating or preserving riparian buffer forests
along river banks would regulate hydrological flows, reducing flooding impacts on bridges,
ports and communities. This would also restore and expand biological corridors, creating a
more favorable environment for biodiversity conservation.

3. Restoration and conservation of critical ecosystems: The restoration and conservation
of mangroves, beaches, wetlands and forests is essential to ensure adequate provision of
environmental services necessary to support all productive activities, secure the livelihoods

                                                                                             31
                                                                                 Appendix III


of local communities, conserve biodiversity and enhance adaptation to climate changes. Of
particular concern are coastal marine ecosystems, particularly mangroves, and the recovery
of their role to protect against storm surges and tsunamis and to reduce coastal erosion, as
well as the enhancement of their functionality as breeding areas for a wide range of marine
and other species upon which communities depend for food and income.
The PREP recognizes that given the levels of environmental degradation in El Salvador, it is
not adequate to simply transform or manage isolated points or small areas of the country, but
a massive transformation is required; eventually, results will be obtained throughout the
country.

C. Analysis of Strengths and Weaknesses:

A quick assessment of MARN’s current strengths and weaknesses in light of its new
mandate to implement the PREP is present below. It should be noted that the proposed
USAID project which is in preliminary design process falls within the purview of the PREP.

MARN has extensive experience implementing a large variety of environmental and
biodiversity projects. Its personnel include a significant number of specialized professionals
in areas of interest to PREP. MARN’s solid institutional relationship with MAG and MOP,
which are key stakeholders for PREP, is a source of strength which will be tapped during the
implementation of the PREP. By policy, as a measure of long-term sustainability, MARN
focuses on grass root practices through an inclusive management approach supported by
community action and effective coordination of local governments and national public
institutions, as expressed in the NEP. The PREP is a high priority for the Minister and the
current Government of El Salvador administration and additional budgetary resources are
being secured for its implementation.

Notwithstanding the strengths briefly discussed above, the 2012 NEP and PREP introduce
significant changes in the approach to the management of biodiversity in El Salvador. There
are two major issues that need to be addressed for successful implementation of PREP.

1. Identification of PREP within MARN’s organizational structure

PREP will require efficient use of human and other institutional resources for a massive
mobilization of farmers, grass root organizations and other key actors in the territories of
intervention. Even though MARN has valuable institutional and specialized human resources
that are relevant to project implementation, it is not clear whether these resources are
efficiently organized under the same direction to optimize their performance.

Currently, MARN is going through a reengineering of its organizational structure directed at
program management. Programs will be led by designated directorates with the participation
of other related offices. PREP represents the climate change-related strategic action and,
according to MARN’s current plans, will be led by the General Directorate of Climate Change
and Strategic Issues.

As a result of the reengineering, and because of PREP’s biodiversity orientation, MARN is
planning to establish the General Directorate of Biodiversity and Natural Heritage which will
support the Climate Change Directorate in PREP implementation.

2. Strengthening of the National Environmental Management System (SINAMA)




                                                                                           32
                                                                                        Appendix III



The project will include working with small sub-projects implemented by NGOs and
Communal Development Associations (ADESCOs). Therefore, MARN will require additional
capacity to monitor and evaluate the sub-projects. This task can be performed by the
Municipal Environmental Units considered by law under SINAMA. MARN acknowledges that
SINAMA is not fully functional due to limited capacity of various municipalities, which would
require institutional capacity development.

Accordingly, MARN is taking steps toward strengthening SINAMA. For example, MARN has
programmed funds in its 2013 budget, subject to legislative approval, to support the
municipalities’ environmental units. In line with this initiative, the municipalities of initial PREP
interventions are prioritized by MARN. Additionally, the Inter-American Development Bank
has made strengthening of SINAMA a requirement for a $200 million loan currently under
negotiation with the Government of El Salvador.

D. Conclusion:

Based on the quick assessment and the additional capacity development considerations
outlined above, the Economic Growth Office concludes that MARN is capable of
implementing the PREP. It is intended that USAID’s contribution will further fortify MARN
and the municipalities to ensure program success and sustainability. The consultant to be
contracted by USAID for the design of the project will further explore technical capacity
development needs of the MARN in light of the up-coming program implementation
challenges and will propose the required measures to be incorporated into project design
and implementation.




                                                                                                  33
                                                                                     Appendix IV


PFMRAF QUESTIONNAIRE



  Questionnaire for the Public Financial Management Risk Assessment
                           (PFMRAF Stage II)


                         FIRST CRITERION: 


                MANAGEMENT CONTROL ENVIRONMENT
	




                                   Date of the assessment:   Completed on 07/09/12
                                   Author of the assessment: Ivan Magana




                                                                                             34
FIRST CRITERION:                        MANAGEMENT CONTORL ENVIRONMENT
Questions to evaluate the               Observations of the author, based on the analysis of available documents and enquiry                  Reference to      Assessment of the Author
compliance with the criterion           of the entity subject to assessment (i.e., based on inquiry, interview, observation or                documents (copy
                                        testing)                                                                                              attached)



1.   Management’s philosophy and        As a customary practice, governmental institutions in El Salvador are impacted by the                 None              No issues noted.
     operating  style,   including      philosophy of its government officials (ministers) and the ruling party in charge.
     management oversight
                                        Currently, the FMLN (left wing party) is in charge and the minister in charge of the ministry of
1.1 Develop an understanding of         environment (MARN) is Herman Rosa Chávez (HRC). Although many members of the current
    government officials’ management    leadership in the government have bad feelings towards the government of the US because of
    style and philosophy and its        the old civil war that took place in the 80s, the HRC has welcomed the help that USAID offers
    potential impact to the project     to MARN and has taken the lead in asking USAID to perform a risk assessment level II to
                                        determine any vulnerabilities and open the ministry to any aid.
                                        As discussed in the following sections, we noted various vulnerabilities related to
                                        management’s control environment

1.2 Develop an understanding of         Basically, government employees and officials respond to the government’s Ethical law (see            B.2.4             Issues noted at PA3.a and
    ethical     requirements     and    B.2.4) and transparency law.                                                                                            PA3.a
    regulations      that    oversee                                                                                                          B.2.5
    government officials                Ethical Requirements:
                                          1. Declaracion Jurada: As part of the laws, certain government officials are required to file a
                                             document when they join the government where they list the goods that they own when
                                             they join the government so that the government can determine if their assets increased
                                             while they were part of the government. The purpose is to check that government officials
                                             did not enrich themselves while working for the government. Please note that testing of
                                             this law was completed at 4.6 below PA3.a
                                          2. The ethic’s Tribunal: The government also has established a tribunal of ethics with the
                                             purpose of reducing fraud. On 04/24/12, the president of the tribunal took place. However,
                                             the tribunal has not been fully functional as of yet. Please note that testing of this section
                                             was done at 4.1 through 4.5 at PA3.a
                                          3. Transparency Law: This law has the purpose to make access to public institutions
                                             information available to the public. This translates on the public having access to request
                                             information from the government such as bids and information on direct procurement
                                             entered into by governmental institutions. Please note that further testing of this law was
                                             done in the procurement section
1.3 Confirm that government officials   During our review, we noted that MARN does not have a process for determining and                     Schedule I-A      Issue noted:
    have develop a process for          evaluating risk and its potential impact on the entity and its programs.                              B.2.1             The entity has not established a
    assessing risk, which includes:     Basically, the government develops its yearly budgets based on the budgets of the previous                              process       of      assessing,
    - Risk identification, including    years plus an adjustment due to inflation. Utilization of resources from the government (e.g.:                          mitigating, monitoring risk and
      impact to projects and the        employees) is not tied to programs or achievable results                                                                the impact that risk would have
      objectives of the entity                                                                                                                                  on the entity achieving its

                                                                                                                                                                                   35 

FIRST CRITERION:                           MANAGEMENT CONTORL ENVIRONMENT
Questions to evaluate the                  Observations of the author, based on the analysis of available documents and enquiry                Reference to           Assessment of the Author
compliance with the criterion              of the entity subject to assessment (i.e., based on inquiry, interview, observation or              documents (copy
                                           testing)                                                                                            attached)



     - Risk mitigation                                                                                                                                                objectives as noted at B.2.1
2.   Organizational           Structure,   We reviewed reporting lines and delegation of authorities in the banking, procurement and IT        See procurement, IT    See procurement, IT            and
     delegation of       authority and     sections.                                                                                           and          Banking   Banking sections below
     responsibility                                                                                                                            sections below
2.1 Review organizational charts,
    reporting lines and requirements
    and determine its impact to the
    project.

2.2 Review policies and procedures to      During our review, we noted that there is only one set of policies and procedures applicable to     See HR Section         Issues noted at HR Section
    enforce segregation of duties          all employees including governmental officials; therefore, this step was completed in the HR
    among government officials             section at HR Section
2.3 Obtain an understanding of any         1. Quinquenial Plan: The government of El Salvador utilizes the quinquenial plan as the             B.2.6                  Issues noted in the Audit
    system of checks and balances             means to review the performance of various government officials and how its meeting its                                 section of this document.
    such as committees and inter-             plans for the 5 years that the government of El Salvador is in place. This process does not
    agency oversight and assess its           seem to be efficient or productive. The reason for this assessment is that In reviewing the
    effectiveness                             plan, it does seem to be indicate that the review process is more of a political tool used to
                                              state what the government of El Salvador under the current administration is doing well and
                                              accomplishing what it set up to do for the people rather than as a tool to become aware of
                                              any issues with the current administration.
                                           2. Financial Audits: Each governmental institution is required to go through various audits.
                                              At a minimum, each institution is required to go through a financial audit to determine if the
                                              officials in charge of the entity are complying with laws and regulations. We have requested
                                              documentation for financial audits and will complete the review in the audit section of this
                                              questionnaire.
2.4 Assess      government   officials’    Projects are handled via the GOES general budget or special accounts for those being funded         None                   No issues noted
    ability to act independently from      by international donors.
    other government entities to
    achieve project goals                  MARN has the ability to act independently from other government entities and complete its
                                           projects unless they are being led by other government entities such as the ministry of
                                           agriculture (MAG).

3.   Policies and Procedures               During our review, we noted that there is only one set of policies and procedures applicable to     See HR Section         Issues noted at HR Section
                                           all employees including governmental officials; therefore, this step was completed in the HR
3.1 Review                 governance      section at HR Section
    documentation,         government
    officials policies and procedures
    and determine whether they are

                                                                                                                                                                                          36 

FIRST CRITERION:                           MANAGEMENT CONTORL ENVIRONMENT
Questions to evaluate the                  Observations of the author, based on the analysis of available documents and enquiry              Reference to      Assessment of the Author
compliance with the criterion              of the entity subject to assessment (i.e., based on inquiry, interview, observation or            documents (copy
                                           testing)                                                                                          attached)



    complete (i.e.: at a minimum, the
    documentation should include
    details on compliance with ethical
    requirements,     segregation    of
    duties, use of government assets,
    compliance with anti-corruption
    laws, travel and entertainment,
    leave and sick time, benefits,
    evaluations       and       dispute
    resolution)

3.2 Confirm that entity has set up         During our review, we noted that there is only one set of policies and procedures applicable to   See HR Section    Issues noted at HR Section
    proper policies to protect assets      all employees including governmental officials; therefore, this step was completed in the HR
    from government officials (e.g.:       section at HR Section
    checks cannot be signed by
    government officials or require two
    signatures,    officials    cannot
    approve their expense reports,
    family members are excluded
    from competing in bids, etc.)

3.3 Develop an understanding of the        During our review, we noted that there is only one set of policies and procedures applicable to   See HR Section    Issues noted at HR Section
    records retention policies and         all employees including governmental officials; therefore, this step was completed in the HR
    confirm that policies clearly define   section at HR Section
    records retentions, including the
    types of documents to be
    retained, applicable periods and
    destruction policies.

4. Ethics and Fraud Detection              As noted in section 1.2, the government has established the Law of Ethics (see PA3.a)             Schedule I-C      Issues noted:
4.1 Confirm that the entity has a                                                                                                            Schedule I-D      1. MARN does not have a
    process for monitoring and                                                                                                                                     process    for    log     in
    investigating complaints about         We tested the process for investigated complaints as noted at Schedule I-D and Schedule I-C.                            complains or investigations.
    potential fraud, misuse of funds.      Issues were noted                                                                                                   2. MARN has not established
    The process should include the                                                                                                                                 a manual regarding its
                                           During our review, we noted that the Ethics Law requires the establishment of a commission
    following:                                                                                                                                                     policies and procedures
                                           board at each government institution. Although MARN has established a Commission Board,
    - Process for receiving and                                                                                                                                    related to the ethics and
                                           we noted that meetings of the Board have not been documented. We also noted that one of
      processing complaints (e.g.:                                                                                                                                 transparency law
                                           the board members representing employees is a park ranges located in a remote place and
      hotline)                                                                                                                                                 3. The ethics law has the

                                                                                                                                                                                  37 

FIRST CRITERION:                            MANAGEMENT CONTORL ENVIRONMENT
Questions to evaluate the                   Observations of the author, based on the analysis of available documents and enquiry            Reference to      Assessment of the Author
compliance with the criterion               of the entity subject to assessment (i.e., based on inquiry, interview, observation or          documents (copy
                                            testing)                                                                                        attached)



    - Process         for      protecting   cannot easily participate in Board meetings                                                                           following weaknesses:
      whistleblowers                                                                                                                                            a. It does not permit any
    - Process       for    investigating                                                                                                                            complaint to be filed in
      complaints                                                                                                                                                    anonymity as it requires
    - Process      for    making      the                                                                                                                           persons filing complaints
      resolution       of     complaints                                                                                                                            to have to present them
      available to the public                                                                                                                                       physically in person at
                                                                                                                                                                    the tribunal
                                                                                                                                                                b. It does not provide any
                                                                                                                                                                    protection to
                                                                                                                                                                    whistleblowers
                                                                                                                                                                c. It does not define certain
                                                                                                                                                                    elements such as leave
                                                                                                                                                                    or detachment from
                                                                                                                                                                    officials from their duties
                                                                                                                                                                    while investigation takes
                                                                                                                                                                    place if applicable, report
                                                                                                                                                                    requirements and
                                                                                                                                                                    publishing of results,
                                                                                                                                                                d. Sanctions are not set up
                                                                                                                                                                    to discourage
                                                                                                                                                                    inappropriate behavior as
                                                                                                                                                                    the cost of sanctions is
                                                                                                                                                                    not set up to be equal or
                                                                                                                                                                    greater to the damage
                                                                                                                                                                    caused. The law basically
                                                                                                                                                                    establishes a ceiling
                                                                                                                                                                    totaling the equivalent of
                                                                                                                                                                    40 minimum salaries
                                                                                                                                                                    which may not
                                                                                                                                                                    discourage certain
                                                                                                                                                                    actions where the value
                                                                                                                                                                    of the wrong may exceed
                                                                                                                                                                    the cost of sanction.
4.2 Review the list of complaints filed
    in the last 2 years and select a        We obtained a list of complaints filed and completed the testing as documented at Schedule I­   Schedule I-D.     No issues noted
    sample for testing and determine        D. No issues were noted during the testing
    that:
    - Any recommendations from the

                                                                                                                                                                                 38 

FIRST CRITERION:                         MANAGEMENT CONTORL ENVIRONMENT
Questions to evaluate the                Observations of the author, based on the analysis of available documents and enquiry             Reference to      Assessment of the Author
compliance with the criterion            of the entity subject to assessment (i.e., based on inquiry, interview, observation or           documents (copy
                                         testing)                                                                                         attached)



      investigation(s) were addressed
    - Complaints were resolved timely
4.3 Review      the      process   of    As noted in section As noted in section 1.2, the government has established the Law of Ethics    Schedule I-D.     No issues noted
    coordinating    review of     any    (see PA3.a). Complaints reviewed by the ethics committee at MARN can be referred to the
    complaints with other agencies as    Ethics Tribunal. However, we did not find evidence that any complaints have been forwarded
    applicable    (e.g.:   Government    to the Ethics Tribunal
    Ethics Tribunal – GET, the
    Supreme Court, etc.)
4.4 Review training requirements as
    they relate to ethics and fraud      We discussed training requirements. Under the new law, each institution is required to provide   None              No issues noted
    awareness among members of           training for its employees at least annually.
    the entity. Perform the following    We noted that MARN is in the process of planning training for its employees.
    testing:
    - Confirm that ethics, fraud
       awareness and reporting is
       provided to employees at least
       yearly
    - Confirm that ethics training
       covers aspects related to
       investigation of complaints and
       applicable laws
4.5 Review the complaint mechanism:
    - Confirm that MARN has a            We requested a copy of MARN’s policies and procedures to process complaints. MARN does           B.2.4             Issues noted:
       mechanism to receive              not have its own policies and procedures. In the place of its own policies and procedures, we
                                         received a copy of the Ethics law. As noted in section 4.1 above, we noted some issues as        B.2.1             1.   MARN does not have a
       complaints                                                                                                                                                process    for   login   in
    - Confirm that complaints are        documented.
                                                                                                                                                                 complains or investigations
       forwarded to the applicable                                                                                                                               as noted on section PA3.a.
       agency
    - Confirm that the applicable                                                                                                                           2.   MARN has not established
       agency reviews and                                                                                                                                        a manual regarding its
       prosecutes cases as applicable                                                                                                                            policies and procedures
    - Review the mechanism to                                                                                                                                    related to the ethics law as
       make the public aware of the                                                                                                                              noted on section PA3.a.
       outcome of any complaints
    - Confirm that agency handing
       complains is properly staff
    - Is the agency independent?
    - Do the procedures provide for

                                                                                                                                                                                39 

FIRST CRITERION:                         MANAGEMENT CONTORL ENVIRONMENT
Questions to evaluate the                Observations of the author, based on the analysis of available documents and enquiry             Reference to        Assessment of the Author
compliance with the criterion            of the entity subject to assessment (i.e., based on inquiry, interview, observation or           documents (copy
                                         testing)                                                                                         attached)



       fairness and due process?
4.6 Obtain a copy of the “Declaracion
    of Patrimonio” related to the “Ley   We requested a listing of the individuals who had filed a wealth declaration which is required   C.2.23 and C.2.21   Issue noted:
    Sobre Enrequecimiento Ilicito of     to avoid officials from enriching themselves from their government jobs. We inquired as to why
                                         the minister and vice-minister were not included in the list and were told that they were not                        Human resources does not
    any applicable personnel of                                                                                                                               track    that  all  applicable
    MARN:                                aware if the President had required such a document from these officials but they were not
                                         located in the ministry’s Human Resources files as noted at C.2.23                                                   employees     or   government
    - Ensure that applicable forms                                                                                                                            officials file the applicable
       were filled out timely                                                                                                                                 documentation to ensure that
                                                                                                                                                              they are not abusing their
                                                                                                                                                              positions.




                                                                                                                                                                                40 

                                                             Appendix IV




	

	


    SECOND CRITERION:

       OPERATIONS




             Date of the assessment: 	   July 2012
             Author of the assessment: 	Ivan Magana,
                                         Karla Hasbun,
                                         Carlos Milla,
                                         Blanca Ibarra and
                                         Juan Carlos Milla




                                                                     41
SECOND CRITERION:                            BUDGET EXECUTION
Questions to evaluate the                    Observations of the author, based on the analysis of available documents and enquiry            Reference to          Assessment of the Author
compliance with the criterion                of the entity subject to assessment                                                             documents (copy
                                                                                                                                             attached)


                                             As documented in the narrative in the conclusions:
1.   Human resources management              1) There is no salary, grades or wage policy                                                    Narrative: C.2.1      We noted one issue:
1.1 Review policies and procedures for                                                                                                       1.     Reglamento     1. Anti-corruption laws and
    the human resources process for          Manuals provided by MARN including policies and procedures were reviewed and we found           Interno de Trabajo    procedures for reporting waste
    completeness. At a minimum,              policies and procedures for all the areas except the following:                                 (Internal     work    and abuse are well defined but
    confirm that the policies include the     Exception 1 - Promotions are established in the manual                                         manual) ( C.2.4).     there is just one article for whistle
    following areas: compliance with          "Reglamento Interno de Trabajo" (pg. 5) but in the                                                                   blower protection. See Art. 51.c.
    ethical requirements, use of              Interview they told us that in reality they don't have                                         2. Programa de        pg.     29     "Ley     de     Ética
    government assets, compliance             Promotions. What they can do is participate as candidate for                                   sugerencias,          Gubernamental."
    with       anti-corruption      laws,     another position. –                                                                            ideas de mejora y
    promotions,       procedures       for    This exception is considered a deficiency that does                                            quejas. (C.2.7).
    grievance, forms to be used by            not have an impact on a program.                                                               3.   Manual      de
    employees, advances, travel and           Exception 2 - Advances is not applicable, we didn't find                                       Procedimientos
    entertainment, leave and sick time,       advances in any manual. - This exception is not                                                Administrativos.
    benefits, evaluations and process         considered a deficiency.                                                                       (C.2.8).
    for reporting fraud, including whistle    Exception 3 - In the "Reglamento Interno de Trabajo"
    blower protection                         pg. 19 & 20 manual they indirectly states they shouldn't                                       4. Ley de Ética
                                              commit fraud or abuse. But there is not an anti-corruption                                     Gubernamental.
                                              laws and procedures for reporting waste and abuse, this                                        (C.2.5).
                                              is stated in the "Ley de Etica Gubernamental" -
                                              This exception is not considered a deficiency.
                                              Exception 4 - Anti-corruption laws and procedures
                                              for reporting waste and abuse are well defined but there
                                              is just one article for whistle blower protection. See
                                              Art. 51.c. pg. 29 "Ley de Etica Gubernamental." –
                                              This is reported as an issue.
1.2 Obtain an understanding of any           As documented in the narrative in the following conclusions:                                    Narrative: C.2.1      Issue noted:
    monitoring tools available to            2) They do not have the proper number of employees to cover projects. If they need              None     for    the   1. They don’t have any
    management to manage the                      expertise in an area, consultants are hired, salaries are high. There are employees that   monitoring tools.     monitoring tools available to
    human resources process (e.g.:                work indirectly on the projects but not indirect costs are charged to projects.            1.Job descriptions    manage the human resources
    turnover ratio, resource allocation,     3) They do not have a turnover rate, but they have the data to obtain the rate.                 for the following     process.
    utilization,    pool     of  expertise   4) Employees and consultants do not record their work hours in a timesheet. They only           positions:            2. Employees and consultants do
    available to projects, etc.) and              have a record of attendance.                                                               1.1 Gerente de        not record their work hours in a
    confirm that:                            As documented in the testing schedule the majority of the employees have the right skill’s      Cambio Climático      timesheet. They only have a
    - There are sufficient employees         match. With the following exceptions:                                                           y          Asuntos    record of attendance.
         to carry out their work             Exception 1 - MARN does not have a salary policy according with the different jobs levels.      Estratégicos. See     We noted 1 Issue in the testing
    - Efficiency is tracked                  The government has hired a consulting firm to prepare a wage policy for all public employees.   attachment No. 6      schedule:
    - They have the right skill’s match      The consulting firm is going to provide the salary policy in 3 months (December 2012) - This    (C.2.15)              1. We noted that the description
                                             exception is not considered a deficiency.                                                       1.2     Jefe     de   of the requirements for the job for
                                             Exception 2 - Exception 2.1 - We noted that for three out of five employees selected for        Unidad de Cultura     employees 2, 4, and 5, did not


                                                                                                                                                                                          42 

SECOND CRITERION:                         BUDGET EXECUTION
Questions to evaluate the                 Observations of the author, based on the analysis of available documents and enquiry                Reference to            Assessment of the Author
compliance with the criterion             of the entity subject to assessment                                                                 documents (copy
                                                                                                                                              attached)


                                          testing, the description of the requirements for the job did not match the qualifications of the    Ambiental. . See        match the qualifications of the
                                          candidates, as follows:                                                                             attachment No. 7        candidates, in addition, the
                                          Employee 2) Sonia del Carmen Baires (Directora de Cambio Climático y Asuntos                        (C.2.15)                qualifications could have been
                                          Estratégicos): The job description required a Post-graduate degree and she just have a              1.3          Director   modified to fit the candidate´s
                                          bachelor in Social Science.                                                                         General           de    background.
                                          Employee 3) Olga Lucía Rodríguez (Jefe Unidad Cultural Ambiental): The job description              ordenamiento,
                                          required a Post-graduate degree (master's degree) and a specialty in sociology, anthropology        evaluación          y
                                          or social science; she has the master's degree. OK                                                  cumplimiento.       .
                                          Employee 4) Francisco Ernesto Durán García (Gerente Cambio Clímático): The job                      See      attachment
                                          description required an Engineer or bachelor degree in social areas (OK) and a post-graduate        No. 8 (C.2.15)
                                          in environment; he does not have the post-graduate degree.                                          2. Resume from
                                          Employee 5) Silvia Margarita Hernández de Larios (Director General de ordenamiento,                 Silvia     Margarita
                                          evaluación y cumplimiento): The job description required an Agronomic, Civil, Industrial            Hernández         de
                                          Engineer and a master's degree in natural resources, she is not an engineer, she has a              Larios.          See
                                          bachelor in economics and she is finishing the master's degree.                                     attachment No. 9
                                          2.2 - In the job description the education requirement does not match the skills required for the   (C.2.9).
                                          job for instance Olga Lucia Rodriguez position requires a master’s degree and a bachelor’s
                                          degree in social science, anthropology or sociology (Her position is "Jefe Unidad Cultural
                                          Ambiental"), on the contrary her boss' (Sonia del Carmen Baires) position requires only a
                                          bachelor's degree in business administration, economy or industrial engineering. The
                                          experience for both of them is mostly consulting works, OK.       This is reported as an issue
                                          (Issue #1)
1.3 Obtain a listing of recently hired
    new employees since the new           According to the testing, the majority of the staff is hired using competitive procedures see       1. MARN internal         We noted 3 Issues in the testing
    minister was appointed and make a     attachment No. 5 (Include link), had proper qualifications to perform their duties, approvals for   work       manual,      schedule:
    sample selection and test the         hiring new employees were properly documented and they had the appropriate experience               chapter III, article
                                          fitting their job descriptions, except the ones that are politically appointed. We found the        #9.            See      1. The minister can directly
    following:                                                                                                                                                        choose employees based on his
    - Staff are hired using competitive   following exceptions in this area:                                                                  attachment No. 1
                                                                                                                                              (C.2.13).               own judgment and it is permitted
        procedures                        Exception 1 - There was not a competitive process because it is a position that reports                                     by the law.
    - Personnel hired had the proper      directly to the minister who is politically appointed. The MARN internal manual, chapter III,       2.    Manual     for
        qualifications to perform their   article #9 (see attachment No. 1), has direct hiring based on the minister needs or personal        hiring          and     2. We noted that the description
        duties                            preferences based on trust. He can hire different positions based on this article: directors,       selecting               of the requirements for the job for
    - Approvals for hiring new            managers, auditors, coordinators, and other positions. This is also stated in the "Recruitment      personnel         at    2-3     did   not    match     the
        employees      were    properly   and Selection of MARN Personnel Manual" see section IV Policy, 2nd paragraph (see                   MARN.        Chapter    qualifications of the candidates;
        documented                        attachment No. 2). In this last manual it just references the work internal manual - This is
                                                                                                                                                    nd
                                                                                                                                              IV, 2 paragraph.        in addition, the qualifications
    - Personnel have the appropriate      reported as an issue (Issue #1)                                                                     See      attachment     could have been modified to fit
        experience fitting their job                                                                                                          No. 2 (C.2.10).         the candidate’s background.
        descriptions                      Exception 2 - The description for the qualifications for the job is too general and could be
                                          fulfilled by almost anyone (see attachment No. 4 pg. 7/40). Also the Manual for positions and       3. Memorandum           3. The approval from the minister
                                          functions could be done after they selected the candidate and they can adapt the                    from   General          was not found in the file.


                                                                                                                                                                                            43 

SECOND CRITERION:                              BUDGET EXECUTION
Questions to evaluate the                      Observations of the author, based on the analysis of available documents and enquiry                   Reference to          Assessment of the Author
compliance with the criterion                  of the entity subject to assessment                                                                    documents (copy
                                                                                                                                                      attached)


                                               qualifications according to the candidate qualifications, just because she is the minister's           Director to Chief
                                               assessor - This is reported as an issue (Issue #2)                                                     of           Human
                                                                                                                                                      Resources stating
                                               Exception 3 - There was not an approval in writing from the minister for this candidate Ana            art. 7 – (f) of the
                                               Maria Ester Mata de Bonilla (see attachment No. 4) - This is reported as an issue (Issue #3)           Internal       Work
                                               Exception 4 - There was not a competitive process because it is a position that reports                Manual of MARN.
                                               directly to the minister who is politically appointed. The position was not advertised, so it is not   See      attachment
                                               documented, on the other hand, although the minister interviews her, this was not                      No. 3 (C.2.11).
                                               documented. It is documented from the moment the minister selects the candidate and gives              4.           Human
                                               the curriculum to human resources - This is reported as an issue (#1)                                  Resources file for
                                               Exception 5 -The human resources employee file is complete from the moment the minister                Ana María Ester
                                               selects the candidate and gives the curriculum to human resources. The following procedures            Mata de Bonilla
                                               were not documented: vacancies published in the local newspaper, pre-selection of candidate,           (Assessor for the
                                               technical test, psychological test and interview, evaluation of test, and selection of employee        Organizational &
                                               from 3 candidates. This process indicates that the minister directly selected the candidate            IT    area).   See
                                               such as E1 and E4 - Issue noted (Issue # 1)                                                            attachment No. 4
                                                                                                                                                      (C.2.12).
                                               Exception 6 - The position was not published in the newspaper and the minister made the                Exceptions 1, 2, 3,
                                               selection process from candidates that had previously submitted resumes - This exception is            4, and 5 apply to
                                               not considered a deficiency.                                                                           this employee.
                                               Exception 7 - The employee was already working at MARN as a consultant in a project that
                                               ended and was hired again as a MARN employee in the same position (See attachment 3) ­
                                               This exception is not considered a deficiency.
1.4 Obtain a listing of contractors for
    the last 4 years and make a sample         Document testing down in purchasing at section 4 below documented at PA3.a                             See section      4    See section 4 below.
    selection and test the following:                                                                                                                 below
    - Contractors are hired using
       competitive procedures
    - Contractors hired had the
       proper qualifications to perform
       their duties
    - Approvals for hiring new
       contractors      were        properly
       documented
    - Contractors are not hired based
       on their political affiliations
                                               As documented in the test schedule. We noted 3 exceptions:
1.5 Review the organizational chart            1 There was not a competitive process because it is a position that reports directly to the            Test    Schedule:     We noted 3 Issues:
    and select samples from various                minister who is politically appointed. The MARN internal manual, chapter III, article #9,          C.2.3
                                                                                                                                                                            1. The minister can directly

                                                                                                                                                                                                   44 

SECOND CRITERION:                          BUDGET EXECUTION
Questions to evaluate the                  Observations of the author, based on the analysis of available documents and enquiry                  Reference to       Assessment of the Author
compliance with the criterion              of the entity subject to assessment                                                                   documents (copy
                                                                                                                                                 attached)


    employees and confirm that their            has direct hiring based on the minister needs or personal preferences based on trust. He                            choose employees based on his
    qualifications and experience agree         can hire different positions based on this article: directors, managers, auditors,                                  own judgment and it is permitted
    with the grade level                        coordinators, and other positions. This is also stated in the "Recruitment and Selection of                         by the law.
                                                MARN Personnel Manual" see section IV Policy, 2nd paragraph. In this last manual it just
                                                references the work internal manual - This is reported as an issue (Issue #1)                                       2. We noted that the description
                                           2 The description for the qualifications for the job is too general and could be fulfilled by                            of the requirements for the job for
                                                almost anyone. Also the Manual for positions and functions could be done after they                                 2-3     did   not    match     the
                                                selected the candidate and they can adapt the qualifications according to the candidate                             qualifications of the candidates;
                                                qualifications, just because she is the minister's assessor - This is reported as an issue                          in addition, the qualifications
                                                (Issue #2)                                                                                                          could have been modified to fit
                                           3 There was not an approval in writing from the minister for this candidate - This is reported                           the candidate’s background.
                                                as an issue (Issue #3)                                                                                              3. The approval from the minister
                                           4 The human resources employee file is complete from the moment the minister selects the                                 was not found in the file.
                                                candidate and gives the curriculum to human resources. The following procedures were
                                                not documented: vacancies published in the local newspaper, pre-selection of candidate,
                                                technical test, psychological test and interview, evaluation of test, and selection of
                                                employee from 3 candidates. This process indicates that the minister directly selected the
                                                candidate such as E1 and E4 - Issue noted (Issue #1)
                                           5 The human resources employee file is complete from the moment the minister selects the
                                                candidate and gives the curriculum to human resources. The following procedures were
                                                not documented: vacancies published in the local newspaper, pre-selection of candidate,
                                                technical test, psychological test and interview, evaluation of test, and selection of
                                                employee from 3 candidates. This process indicates that the minister directly selected the
                                                candidate such as E1 and E4 - Issue noted (Issue #1)
                                           6 The position was not published in the newspaper and the minister made the selection
                                                process from candidates that had previously submitted resumes - This exception is not
                                                considered a deficiency.
                                           7 The employee was already working at MARN as a consultant in a project that ended and
                                                was hired again as a MARN employee in the same position - This exception is not
                                                considered a deficiency.
        a.    Review MARN’s strategy       As documented in the narrative, they have no training because there is no budget for training
              for train staff to develop   in the Ministry of finance. However, there is an institutional network of training (responsible for   Narrative: C.2.1   Issue noted: MARN does not
              capacity:                    training in all ministries) and for English training. The European Academy gives English                                 have a strategy to train staff.
   -   Review the type of ongoing          classes in the Ministry and every employee interested pays for them.
       training that is provided to
       address        any       employee
       weaknesses
   -   Review all trainings that are
       provided for all employees
       during the year


                                                                                                                                                                                          45 

SECOND CRITERION:                           BUDGET EXECUTION
Questions to evaluate the                   Observations of the author, based on the analysis of available documents and enquiry                 Reference to         Assessment of the Author
compliance with the criterion               of the entity subject to assessment                                                                  documents (copy
                                                                                                                                                 attached)


2   Budgeting,     accounting       and     We obtained copies of the policies and procedures for the Government of El Salvador (GOES)           Narrative        –   Issue     noted:     During     our
    financial reporting                     and performed a walkthrough of the process as noted in the narrative.                                Budget: C.2.20       meetings, we became aware that
                                                                                                                                                                      the GOES develops the budget
2.1 Review policies and procedures for      The policies included a process for approving the budget which has more than one tier as                                  based on the prior year plus
    budget, accounting and financial        described by the law (one at the ministry level and one at the finance ministry or government                             adjustments due to inflation; but,
    reporting cycles and review for         level).                                                                                                                   this is done based on salaries
    completeness (i.e.: confirm that the                                                                                                                              and it is not done at the project
    policies include approval process,      We noted that the GOES develops the budget based on the prior year plus adjustments due to
                                            inflation; but, this is done based on salaries and it is not done at the project level. Currently,                        level. Currently, there is a plan to
    reporting deadlines, reporting lines,                                                                                                                             move towards a budget that will
    access to computer software,            there is a plan to move towards a budget that will be project driven in the next 5 years – This is
                                            noted as an issue.                                                                                                        be project driven in the next 5
    delegation of duties, etc.)                                                                                                                                       years.
2.2 Review process flows for the
    budgeting, accounting and financial     We obtained a budget flow for the budgeting process as noted in the narrative. The budget            Narrative        –   No issues noted
                                                                                                  th
    processes and evaluate the              process begins in April and ends prior to September 30 when the draft budget will summit to          Budget: C.2.20
    effectiveness of various controls       the legislative approval.
                                                                                                                                                 Schedule II-D
    used in this process                    We tested the controls for the budget process in the test plan and noted the deficiencies noted
                                            in the observations’ column.                                                                         Schedule II-E



2.3 Obtain system flows or flowcharts       As noted above, this has been documented in the narrative. We identified controls and are            Narrative        –   Conclusions noted on 2.4 below
    of the budget, accounting and           testing them as noted in 2.4 below.                                                                  Budget
    financial   reporting       systems.
    Determine     controls      available                                                                                                        See 2.4 below
    throughout the process and
    determine their functionality
2.4 For the budget cycles, review
    controls over projects to confirm       We met with Carla Canas (CC), UFI Manager at MARN, and discussed controls over the                   Narrative Budget:    Issues noted as follows:
    that:                                   budget process as documented in the narrative.                                                       C.2.20
                                                                                                                                                                      1. Reallocation or reprograming
    - Budgets are approved timely           When it comes to timeliness, during our initial testing (as noted in the narrative), we noted that   Schedule II-D           of funds to different budget
    - Budgets are reviewed and              they have been preparing the budget timely.                                                                                  areas is done without the
       approved timely                                                                                                                           Schedule II-E           appropriate level of approval.
    - Funds and budgets for specific        All changes made during the fiscal year are tracked with the Programming of the Budget                                       For instance, UFI may make
       projects are restricted from         Execution Report (PEP). This report serves as monitor and control execution, comparing the                                   budget reallocations without
       other use                            planned budget with the actual execution.                                                                                    the appropriate approval while
    - Deviations from the original          According with the interview with CC (UFI Manager) every major reallocation in the budget                                    reprograming of funds are
       budget are tracked and properly      required approval from Directorate General of Budget following the mandatory procedures.                                     approved by the UPC manager
       approved                                                                                                                                                          without the required next level
                                                                                                                                                                         of approval (See Schedule II­


                                                                                                                                                                                            46 

SECOND CRITERION:                           BUDGET EXECUTION
Questions to evaluate the                   Observations of the author, based on the analysis of available documents and enquiry                Reference to        Assessment of the Author
compliance with the criterion               of the entity subject to assessment                                                                 documents (copy
                                                                                                                                                attached)


                                                                                                                                                                      D)
                                                                                                                                                                    2. MARN is currently utilizing a
                                                                                                                                                                       manual notebook as an
                                                                                                                                                                       informal mechanism to track
                                                                                                                                                                       shortfalls in budget funding
                                                                                                                                                                       rather    than    utilizing   the
                                                                                                                                                                       accounting      system      (See
                                                                                                                                                                       Schedule II-D).
2.1 Off-budget spending
     - What is the extent of extra-         The extra budgetary resources do not require legislative approval if they came from                 Narrative Budget:   No issues     noted    during   the
        budgetary funds, special funds      FOMILENIO, FONAES, Grants from donors community directly management by the Ministries,              C.2.20              testing.
        and separate or supplementary       and earning incomes generated by providing goods and services.
        budgets?
     - Who benefits from them?
2.5 Obtain an understanding of how                                                                                                                                  Issue noted:
    special    accounts      are    used,   These special projects are managed separately by each entity (e.g.: MARN) and are ruled by          Narrative Budget:   We noted that unused Funds in
    including controls to:                  the law mentioned in the agreement/contract with the donor. As we note in the annual report         C.2.20              the GOES budget can be
    - Implement and maintain special        MARN had more than 20 cooperation projects in 2010.                                                                     misappropriated        by      the
        accounts                            We found that projects are handled directly in separate bank accounts. Many projects have                               government if unused in the year
    - Monitoring special accounts           two bank accounts (saving and operations accounts). Donor agencies transferred funds to the                             when budgeted. This may impact
    - Restricting funds in special          saving accounts and the institutions have distributed funds using check accounts. Please refer                          programs that have budgets
        accounts (restrictions placed on    to the bank accounts section of the testing for further details on controls over bank accounts.                         extending for more than one
        accounts)                                                                                                                                                   year. In theory a project may lose
                                            If the donations has included in the general budget, in theory, this funds will be captured by                          its funds if it were to donate
                                            the treasury in case they would not be used in the current budget year. In the past, MARN has                           funds that were placed directly
                                            cases of misappropriated funds by the treasury.                                                                         into    the     GOES       budget.
                                                                                                                                                                    Furthermore, political changes
                                                                                                                                                                    may result in changes to special
                                                                                                                                                                    accounts enabling GOES to
                                                                                                                                                                    misappropriate unused funds
                                                                                                                                                                    even if they are from projects
                                                                                                                                                                    (See Budget Iss App).
2.6 Develop an understanding of             We found that the major responsible of execution of budget is the Directorate of Budget             Narrative Budget:   No issues     noted    during   the
    controls to ensure segregation of       (Treasury) who leads, regulates, and control the formulation, implementation, monitoring and        C.2.20              testing.
    duties are enforced to ensure           evaluation of general budget. The General Director has responsible to report to Minister of
    budgets are followed                    Finance on a regular basis the results of execution of budget, including recommendations for
                                            corrective action to deviations.
                                            In the case of the public institutions, each entity is responsible to execute the budget that has

                                                                                                                                                                                          47 

SECOND CRITERION:                            BUDGET EXECUTION
Questions to evaluate the                    Observations of the author, based on the analysis of available documents and enquiry            Reference to        Assessment of the Author
compliance with the criterion                of the entity subject to assessment                                                             documents (copy
                                                                                                                                             attached)


                                             been allocated. The UFI manager has the responsibility to inform to the highest level of
                                             authority about the follow up on the budget.
2.7 Do financial regulations provide for
    additions to budgets during the          We note that in recent years, MARN has received extraordinary resources form international      Narrative Budget:   No issues      noted   during   the
    year? If so                              cooperation reaching more than three-quarters of total ordinary funds for a fiscal year. The    C.2.20              testing.
     - What is the procedure?                trend is upward to get more extraordinary funds and there are not prohibitions or ceiling to
     - Is there a limit for which            acquire these funds.
        approval is not required?
2.8 Obtain the chart of accounts for the     We reviewed the financial statements and did not see any accounts that merit any further        C.2.16              Issue noted:
    MARN and the balance sheet for           review.
    some quarters and confirm that:                                                                                                                              MARN does not reconcile
                                             When it comes to account balances, we noted that MARN utilizes the SIAF system for                                  purchases done manually in
    - It does not contain accounts that      purchases and assets while the SAFI system from the ministry of Finance for their accounting                        Excel and in the system SIAF to
       seem strange or could be              needs. We noted that data kept in the SIAF and Excel (purchases) is not reconciled to the                           the ones in the Accounting
       misused                               SAFI accounting system                                                                                              system (SAFI)
    - Major account balances are
       reconciled timely (e.g.: cash         When it comes to the balance sheet, the system is mapped to the financial statements.
       balance to accounts making up
       cash, payroll accounts, assets,
       etc)
    - The balance sheet per MARN is
       reconciled to the one from the
       financial statement
    - The balance sheet is mapped to
       the financial statements
2.9 What is the extent of spending by
    autonomous agencies in the               MARN has two special funds: the Environment fund of El Salvador (FONAES) and the                Narrative      –    No issues      noted   during   the
    budget for MARN? Does MARN               Environment Foundation of Santa Ana project. These projects have received transfers             Budget              testing.
    have any controls over such              according to the budget programming PEP. Institutions have provided the supporting
    spending?                                documents in order to be available to receive these funds.
                                             We note that through this procedure, the Ministry ensures that funds have been used were
                                             promptly budget.
2.10When it comes to budget
    transparency and access to               The government has many web sites to inform about fiscal transparency (budget and                                   Issue note: There is no
    information, what is the degree of       expenditures), procurement process (COMPRASAL), fiscal sector data (BCR), and more                                  regulated      procedure       for
    public access to key fiscal              recently a special web site for transparency (Government Transparent).                                              consulting public opinion on
    information?                                                                                                                                                 budget,     although     informal
                                             We found a citizen’s guide has made by Ministry of Finance to provide a simple, user-friendly                       discussions    are   held    with
     - Is it limited to raw fiscal data on   explanation of the components of general budget and summary of the main budget figures.
        an official website?                                                                                                                                     organizations representing the
                                             This guide was published and broadly disseminated.                                                                  public and enterprise sector and

                                                                                                                                                                                        48 

SECOND CRITERION:                          BUDGET EXECUTION
Questions to evaluate the                  Observations of the author, based on the analysis of available documents and enquiry               Reference to        Assessment of the Author
compliance with the criterion              of the entity subject to assessment                                                                documents (copy
                                                                                                                                              attached)


     - Does the government produce a       However, we noted that the public opinion is generally not consulted sufficiently in terms of                          other think tanks.
       ‘Citizens’ Guide’ to the Budget?    plans for budget and its modifications. MARN hasn’t any procedures to drive a citizen’s
     - Are there opportunities for the     consulting process about the allocation of funds and construction of their budget.
       public to comment on and
       review budgets before they are
       formulated or approved?
2.11When it comes to reserves
    requirements in the budget             We note the MARN budget has increase in recent years and the special funds During                  None                No issues     noted   during   the
     - Do financial regulations provide    development of a new budget, adjustments are made to the budget from the previous year                                 testing.
       for inflation or other reserves?    due to inflation.
     - If so, how are these reserves       There are not incremental rules in the budget. The general budget has a reserves or special
       handled?                            allocations for emergencies purposes.

2.12 Review controls over approval of      Monitoring the budget and its execution is extensive audited and oversight for many                Narrative       –   No issues     noted   during   the
    budgets.                               institutions including Internal Audit Unit of entities responsible for its execution, Court of     Budget (C.2.20)     testing.
     - Is MARN solely responsible for      Accounts, Directorate of Budget as noted in the narrative.
       budgetary control?                  As we mentioned above the major responsible of execution of budget is the Directorate of
     - What monitoring tools are used      Budget (Minister of Finance) and each UFI manager has the responsibility for their entity’s
       by other agencies for evaluation    budget, which is further explained in the narrative.
       purposes?
     - How is over/under spending
       reported to the responsible
       government official? If so, are
       those only above certain limits
       reported?
2.13Confirm how transfer of funds are
    used by the ministry:                  The Directorate General of Treasury (DGT) gave a single treasury account to each entity and        Narrative       –   No issues     noted   during   the
     - Assess        what  degree     of   has authorized subsidiary bank accounts and managed by institutions.                               Budget (C.2.20)     testing.
        flexibility MARN has to transfer   The DGT has established monitoring and oversights procedures to check the bank accounts
        funds                              balances. Institutions must summit banks reconciliations and balance monitoring information
     - What controls are in place to       on a regular schedule (For further details on the testing related to bank accounts, please refer
        determine that funds are used      to Test Schedule II – Sheets J and K)
        as intended
                                           Each month, the institutional treasury (UFI) received programed funds from the Ministry of
                                           Finance into a main bank account. Then the institutional treasury (UFI) transfer funds to
                                           subsidiaries bank accounts in order to management the cash flow using electronic procedures
                                           (such as token codes).
2.14When it comes to accounting,
    confirm that:                          Basis of accounting: GOES utilizes bases of accounting that uses both cash basis and               Schedule II-G       No issues were noted.


                                                                                                                                                                                        49 

SECOND CRITERION:                            BUDGET EXECUTION
Questions to evaluate the                    Observations of the author, based on the analysis of available documents and enquiry               Reference to      Assessment of the Author
compliance with the criterion                of the entity subject to assessment                                                                documents (copy
                                                                                                                                                attached)


     - The basis of accounting is            accrual (modified basis). This basis of accounting is other than GAAP and follows local laws.      Schedule II-F
       clearly established and it follows    We did confirm that all the governmental units follow the same local accounting rules.
       some clear and consistent                                                                                                                C.2.16
       guidelines (e.g.: GAAP, local         Impact of local regulation on projects: Donor projects are handled separately including
       GAAP, international standards)        with their own bank accounts. Since these projects are not part of the government budget,
     - The basis of accounting are the       their accounts extend beyond one year. Accounting and reporting for these projects is done
       same for all the various              using the government’s local accounting system (SAFI) and may also require the use of
       governmental units                    another accounting package if the donor requires it. When it comes to the financial statements
     - Impact that local regulation has      prepared for projects, they may have to be done manually using Excel since the SAFI system
       on the reporting of specific          has the ledger accounts established by the GOES that may not correspond to the accounts
       projects or the use of special        required by a donor. Financial statements for donors are prepared in accordance with the
       accounts                              donor agreements.
     - Fund statements for the projects      Controls over Journal Entries: We tested the following controls over journal entries:
       are     prepared      using     the   sequential numbering, controls over deletion of posted journal entries, field restrictions in
       government software rather            journal entries, timing restrictions (no prior year postings) as documented at Schedule II-G. No
       than being prepared manually          issues were noted
     - Financial statements for projects
       are prepared periodically             Additions to Chart of Accounts: We tested controls over additions to the chart of accounts
     - Journal         entries         are   as documented at Schedule II-F. No issues were noted during the testing.
       systematically numbered
     - Additions to the chart of
       accounts are controlled centrally
     - Access to the accounting
       system is restricted based on
       duties
2.15When it comes to the general
    ledger, confirm that:                    MARN utilizes the SAFI accounting system maintained by Hacienda (Ministry of Finance) to           None              No issues noted
     - There is a link between the           record all their accounting journal entries and produce their financial statements. According to
       general     journal,    subsidiary    the Ministry of Finance, SAFI is utilized by most GOES entities (about 98%).
       ledger and the general ledger         During our review, we confirmed that for payroll, a separate system is utilized (SIRH).
     - Subsidiary       ledgers        are   However, the data from SIRH is uploaded to SAFI once a month.
       reconciled to the general ledger
                                             We noted that there are no subsidiary ledgers maintained in other systems that needed to be
                                             reconciled.
2.16
        -
3.     Collections, deposits and cash
       funds                                 We reviewed policies and procedures related to the cash cycle as documented at Schedule II­        Schedule II-I     No issues   noted   during   the
                                             I                                                                                                                    testing
                                                                                                                                                C.2.24
3.1 Review policies and procedures for

                                                                                                                                                                                      50 

SECOND CRITERION:                            BUDGET EXECUTION
Questions to evaluate the                    Observations of the author, based on the analysis of available documents and enquiry             Reference to      Assessment of the Author
compliance with the criterion                of the entity subject to assessment                                                              documents (copy
                                                                                                                                              attached)


    the cash cycle and review for            We confirmed that policies are in place and enforced.
    completeness (i.e.: confirm that the
    policies include controls over           We confirmed that tracking is done by project as individual accounts are maintained for each
    access to cash and checks,               project.
    reconciliation of bank accounts, use
                                             We reviewed the process for selecting bank accounts and noted that MARN only utilizes one
    of petty cash funds, segregation of
                                             bank. MARN has a total of 55 bank accounts.
    duties, etc.)
     - Confirm that the policies are in
         place and enforced
     - Confirm that cash tracking can
         be done by project by fund and
         account
     - Review         procedures      for
         selecting banks. Is a single
         bank used for all banking
         needs?
     - How are credit cards utilized?
3.2 Review process flows for the cash        Process reviewed process flows for the accounting cycle and payments of expenses related to      C.2.24            No issues noted.
    process      and     evaluate the        projects.
    effectiveness of various controls
    used in this process
3.3 Confirm that there are controls over
    cash       management       including    We discussed management controls over funds. Per MARN, account balances are invested in          C.2.24            No issues noted
    investing accounts to generate           CD accounts and earn interest if the contract/agreement requires that funds be invested while
    interest when not in use                 they await usage. CD accounts that earn interest are tracked as applicable for some projects
      - Confirm    that     short    term    and interest earned is integrated as applicable.
        investments      are      properly
        tracked
      - Investments are reconciled and
        integrated into the accounting
        records
3.4 Confirm whether cash rationing has
    been      imposed.    Develop      an    No cash rationing was noted.                                                                     None              No issues noted
    understanding of the rules for           When it comes to the tracking of funds and budgets, this area is covered in the budget section
    rationing cash                           of the testing. When it comes to the tracking of project funds, we noted that an accounting
3.5 Confirm that there are sufficient        tech is responsible for tracking account balances and usages of cash for each individual
    tracking tools to properly manage        project.
    the cash needs of the projects and
    the entity


                                                                                                                                                                                   51 

SECOND CRITERION:                           BUDGET EXECUTION
Questions to evaluate the                   Observations of the author, based on the analysis of available documents and enquiry              Reference to      Assessment of the Author
compliance with the criterion               of the entity subject to assessment                                                               documents (copy
                                                                                                                                              attached)


3.6 Review the potential impact of the
    use of a single account act and the     GOES is in the process of undergoing a project that oversees the upgrade of the SAFI              None              Potential Issue:
    impact to any projects managed by       accounting system used by most government institutions in El Salvador. This project is also
                                            trying to implement the use of a single account. However, implementation of a single account                        Use of a single account is being
    the entity:                                                                                                                                                 considered for the future. This
    - Develop an understanding of any       would seem to require changes in regulation since all the payments including the ones for
                                            special projects would have to be managed from one account rather than being managed from                           may negatively impact projects
      treasury single account                                                                                                                                   as unused funds may be
    - Does the entity use one single        various bank accounts as it currently is handled.
                                                                                                                                                                misappropriated      by   GOES
      bank for all accounts or various      Implementation of a single account may have an impact to the projects in the future. Currently,                     depending on how the law is
      banks?                                donor programs/projects are managed using independent bank accounts that are not tied to                            written at the time.
                                            the budged of the GOES. Changing to a single account may have an impact in that unused
                                            funds may be misappropriated if not used during the year when they were designated. USAID
                                            needs to assess the future impact of using a single account in light of the law at the time.

3.7 Review controls over the cash           We reviewed and tested the process for recording cash adjustments as noted at Schedule II-K       Schedule II-K     No issues were noted
    process to record adjustment to
    cash balances and confirm that
    adjustments to cash balances are
    recorded timely

3.8 Confirm that the budget and cash        When it comes to projects, tracking of the budget and cash is monitored by an accounting          None              No issues were noted
    plans are integrated, taking account    tech. For projects, MARN sets up a spending plan which is monitored.
    the timing of payments and updates
    of cash during the year.

3.9 Confirm that the entity uses an         When it comes to projects, tracking of the budget and cash is monitored by an accounting          None              No issues were noted
    annual cash plan, which is updated,     tech. For projects, MARN sets up a spending plan which is monitored
    setting out monthly cash inflows,
    outflows,      and        borrowing
    requirements
                                                                                                                                                                Exceptions noted:
3.10 Review controls over access to         We reviewed controls over access to the bank accounts. MARN maintains 55 bank accounts.           C.2.24            1. MARN utilizes an excessive
     the cash account balances and          Bank accounts require two signatures for any checks or to transfer funds to pay vendors. We                            number of accounts which
     confirm that access to the bank        tested controls over access to bank accounts as documented at Schedule II-J                       Schedule II-J
                                                                                                                                                                   increase the likelihood of
     accounts is limited and powers of                                                                                                                             fraud        and       creates
     authority of government officials to   When it comes to government officials, they are not authorized to sign checks or transfer
                                            funds from the bank accounts.                                                                                          inefficiencies.   Additionally,
     such accounts is restricted                                                                                                                                   GOES         maintains      an
                                                                                                                                                                   excessive       number       of
                                                                                                                                                                   accounts (around 1200 -
                                                                                                                                                                   1500)
                                                                                                                                                                2. We noted that the same

                                                                                                                                                                                     52 

SECOND CRITERION:                            BUDGET EXECUTION
Questions to evaluate the                    Observations of the author, based on the analysis of available documents and enquiry              Reference to       Assessment of the Author
compliance with the criterion                of the entity subject to assessment                                                               documents (copy
                                                                                                                                               attached)


                                                                                                                                                                     individuals are basically in
                                                                                                                                                                     charge      of   being      the
                                                                                                                                                                     signatories for various bank
                                                                                                                                                                     accounts. The reason for this
                                                                                                                                                                     is    that   MARN      as     a
                                                                                                                                                                     government institution only
                                                                                                                                                                     has a certain number of
                                                                                                                                                                     employees that are allowed to
                                                                                                                                                                     have access to bank accounts
                                                                                                                                                                     and sign checks. This may
                                                                                                                                                                     seem to potentially cause
                                                                                                                                                                     conflicts as people managing
                                                                                                                                                                     various projects are signing
                                                                                                                                                                     checks for various projects.
3.11 Discuss with government officials       We met with MARN employees and discuss controls used to prevent fraud, waste and abuse.           C.2.24             Issue noted in the expenditures
     controls used to prevent and            Basically, MARN relies on the following controls: segregation of duties (e.g.: requisition                           section related to potential
     detect fraud, waste and abuse in        approval and receiving of goods), two signatories being required for each check, bank             Schedule II-J      segregation of duties issue.
     the bank and fund accounts              reconciliations, ethics committee.                                                                Schedule II-K
     (discuss the use of both front and
     back end controls, or combination       During our review of purchases (see expenditures section), we noted that signers of checks
     of preventive, detective and            perform multiple duties such as being involved in choosing the vendor, signing the checks,
     corrective)                             receiving the goods and preparing the journal entries – This is further discussed in the
                                             expenditures section.

3.12 Review segregation of duties            During our review of purchases (see expenditures section), we noted that signers of checks        See expenditures   Issue noted in the expenditures
     over cash accounts over physical        perform multiple duties such as being involved in choosing the vendor, signing the checks,        section.           section related to potential
     security, authority and recording.      receiving the goods and preparing the journal entries – This will be further discussed in the                        segregation of duties issue.
     Confirm that the duties of signing      expenditures section, please refer to it.
     checks     is    separated    from
     preparing bank reconciliations,
     recording     transactions     and
     custody of assets (assets to
     vault)
                                                                                                                                                                  Issues noted:
3.13 Make a selection of cash                We reviewed controls over bank reconciliations and confirmed that they were functioning as        C.2.24             1) We noted that MARN does
       accounts and test the following:      intended.                                                                                                               not have a control to further
                                                                                                                                               Schedule II-J
    -              reconciliations     are   We noted that all bank accounts require two signatures per check or transfer. However, we                               mitigate the risk of loss for
        prepared timely
      Bank                                   noted that MARN does not have a control to further mitigate the risk of loss for high payments.   Schedule II-K         high payments. There is no
    - Reconciling items are resolved         There is no control requiring a second level review or approval for payments exceeding a                                control requiring a second
        timely (they are not carried from                                                                                                                            level review or approval for

                                                                                                                                                                                       53 

SECOND CRITERION:                            BUDGET EXECUTION
Questions to evaluate the                    Observations of the author, based on the analysis of available documents and enquiry             Reference to         Assessment of the Author
compliance with the criterion                of the entity subject to assessment                                                              documents (copy
                                                                                                                                              attached)


          month to month)                    certain threshold.                                                                                                       payments exceeding a certain
     -    Reconciliations were reviewed                                                                                                                               threshold.
     -    Reconciliations were accurate      We inquired about controls to ensure that employees handling bank accounts do not commit                              2) background checks are done
          (they reconciled to the general    fraud. First, background checks are done of individuals responsible for bank accounts;                                   of individuals responsible for
          ledger and to the bank             however, they are only done when employees first join MARN rather than periodically.                                     bank accounts; however, they
          statement)                         Second, MARN maintains bonds/insurance for employees handling bank accounts; however,                                    are     only     done     when
     -    Items on the reconciliation are    the amounts insured do not represent the balances managed in the bank accounts. Basically,                               employees first join MARN
          properly supported                 the insurance only covers up to approximately $11K per employee when the account balances                                rather than periodically
     -    Check signing requires more        could be in the millions.                                                                                             3) MARN maintains insurance to
          than one signature based on the                                                                                                                             cover potential losses caused
          value of the payment                                                                                                                                        by employees handling bank
     -    Payments exceeding a certain                                                                                                                                accounts;      however,     the
          threshold (e.g.: $100K) require                                                                                                                             amounts insured do not
          additional approvals                                                                                                                                        represent      the    balances
     -    The background of people                                                                                                                                    managed       in   the    bank
          executing checks is checked                                                                                                                                 accounts.     The    insurance
     -    Bond amounts of people signing                                                                                                                              covers up to approximately
          checks is significant enough to                                                                                                                             $11K per employee when the
          cover the value of the account                                                                                                                              account balances could be in
          balances                                                                                                                                                    the millions
 3.14    Make a selection of petty cash
         accounts and test the following:    This item was covered in the procurement section. Please refer to the sample testing in          This item was        This item was covered in the
     -    Items in the petty cash fund are   section 4.                                                                                       covered in the       procurement section. Please
          properly supported                                                                                                                  procurement          refer to the sample testing in
     -    Only petty purchases are                                                                                                            section.    Please   section 4.
          recorded                                                                                                                            refer    to    the
                                                                                                                                              sample testing in
                                                                                                                                              section 4.

4.   Procurement, purchasing          and    We obtained a copy of the policies and procedures and reviewed them as noted.                    Narrative: E.2.2     Issue #1: Although MARN has a
     disbursement cycle                                                                                                                                            system to track purchases; it is
                                             The legal framework for purchasing is the Public Acquisition Law (LACAP). The Unit               Test Schedule II –   not fully utilized as donor projects
4.1 Review policies and procedures for       responsible for the bidding, evaluation, and award process is the UACI. The UACI is required     Sheet      L     –   are managed manually by using
    the purchasing and disbursements         by law to publish all solicitations, regardless of dollar value, in a system called COMPRASAL,   Schedule II-L        Excel. The impact is that there is
    cycle and review for completeness        which is kept by the Ministry of Finance.                                                                             no way of managing the
    confirming that they address at the                                                                                                                            purchase cycle and understand
    minimum the bidding process (this        MARN utilizes the SIAF system to input requisitions and to partly comply with the LACAP
                                             regulation. However, we noted that not all the purchases are input into the SIAF system. The                          delays       or     monitoring    of
    should include bid evaluation                                                                                                                                  payments. Furthermore, there is
    process such as committees,              majority, approximately 90% of all donor projects are kept outside the SIAF system (This is
                                             reported as an issue). When it comes to the tracking of payables or the vendor listing, UACI                          a lack of a database that
    competency, etc.), selection of                                                                                                                                provides timely and reliable
    vendors, maintenance of the              does not have a systematic tracking system for open purchases because not all purchases


                                                                                                                                                                                         54 

SECOND CRITERION:                            BUDGET EXECUTION
Questions to evaluate the                    Observations of the author, based on the analysis of available documents and enquiry                Reference to       Assessment of the Author
compliance with the criterion                of the entity subject to assessment                                                                 documents (copy
                                                                                                                                                 attached)


    vendor listing, regulations related to   are input in the SIAF system as noted above.                                                                           information (please refer to the
    LACAP,       ordering     processing                                                                                                                            narrative for further details)
    system,      purchase      approvals,    When it comes to the maintenance of the vendor listing, UACI does not have a system for
    tracking of open orders and              managing the vendors. Furthermore, the vendor listing is maintained in a separate system                               Issue #2: Registration control
    tracking of payables                     owned by UNAC from the Ministry of Finance (Hacienda).                                                                 and maintenance of vendors in
                                                                                                                                                                    COMPRASAL seems to be split
                                                                                                                                                                    between MARN and the Ministry
                                             When it comes to the bid evaluation process, as documented in the narrative, there are 3                               of Finance (Hacienda) without
                                             types of award bidding processes depending on the value:                                                               clear       assignment      for
                                                     Bidding process if it is greater than $53,000 which requires that it goes through the                         maintenance of the vendor
                                                      COMPRASAL portal and publication in local newspapers. Furthermore, the bidders                                master file, especially vendors
                                                      have the right to ask for a review of the process if they do not win.                                         who are at default.
                                                     If the value is less than $53,000, it could go through what is called “libre gestion”
                                                      which is processed by the MARN unit in charge of managing the bidding (UACI) and                              Issue #3: Direct procurement
                                                      places the item in COMPRASAL and vendors can submit quotes. However, bidders                                  bypasses        any        controls
                                                      do not have the right to request a review in case they lose.                                                  established to ensure that you
                                                                                                                                                                    utilize the most qualified vendor
                                                     In case MARN determines that they have one vendor uniquely qualified, they may
                                                                                                                                                                    for the lowest price. Furthermore,
                                                      bypass any other option and choose the one vendor directly. However, they are
                                                                                                                                                                    there are no ceilings on the value
                                                      required to publish in COMPRASAL, the solicitation and who they awarded the
                                                                                                                                                                    of the procurement that can go
                                                      contract to. (This is reported as an issue)
                                                                                                                                                                    through the direct procurement
                                                                                                                                                                    process. We recommend that the
                                                                                                                                                                    instrument defines that direct
                                                                                                                                                                    procurement should not be used
                                                                                                                                                                    in the project.

4.2 Confirm if the procurement process       The procurement process cannot begin before the budget is authorized. According to the              Narrative: E.2.2   No issues noted
    can begin before the budget is           latest modifications to LACAP, the law requires that prior to issuance of a requisition for goods
    authorized and how?                      or services, the requestor must obtain funds availability which is stamped in the requisition.

4.3 Review process flows for the             We obtained policies and procedures including process flows. We completed the evaluation of         Narrative: E.2.2   No issues noted
    purchasing process and evaluate          controls in section 4.7 below
    the    effectiveness    of   various                                                                                                         C.2.8
    controls used in this process            The internal procedures regarding “Gerencia de Adquisiciones y Contrataciones Institucional
                                             (GACI), or UACI, describes the purchasing process, which was also confirmed during the
                                             interviews. The effectiveness of the controls is tested at 4.7 and 4.8.

4.4 Obtain an understanding of the           UNAC – There is a unit in charge of contracting and procurement of the government (UNAC)            Narrative: E.2.2   Issues noted:
    procurement oversight/regulatory         that should oversee the purchasing unit at each institution including the one from MARN.
    body and confirm that:                   However, the UNAC has limited resources and provides guidance when it is requested from             E.2.2 see page 4   1. There is no actual monitoring
                                             the local procurement unit at MARN (UACI).                                                          (UNAC)                of vendors, account balances,
  -    Such body has proper authority                                                                                                                                  time to process requests, and


                                                                                                                                                                                          55 

SECOND CRITERION:                          BUDGET EXECUTION
Questions to evaluate the                  Observations of the author, based on the analysis of available documents and enquiry             Reference to         Assessment of the Author
compliance with the criterion              of the entity subject to assessment                                                              documents (copy
                                                                                                                                            attached)


       and independence in the legal       Monitoring of Purchases – the unit in charge of purchases at MARN should be in charge of                                 so forth. Therefore, it is hard
       framework                           monitoring performance of purchases such as: time to process a purchase, time to pay a                                   to    determine    if    MARN
 -     Review the monitoring tools for     vendor, number of bids process and so forth. However, we noted that monitoring of purchases                              processes            purchases
       the oversight body to report        and vendors is not done – this is reported as a deficiency in the observations column.                                   effectively,  accurately     or
       trends and issues to the                                                                                                                                     timely and/or if payments are
       government                          The procurement oversight may be done thru different means:                                                              processed timely (see E.2.2 )
 -     The public is made aware of
                                                   Internal audit division. This function basically performs internal reviews of the                            2. Audits or reviews done by
       issues noted by the regulatory
                                                    procurement function every year. The purpose is to ensure that they follow the                                  various entities are not
       body
                                                    LACAP regulation.                                                                                               published to ensure that the
                                                                                                                                                                    public is aware of issues
                                                   Ministry of Finance. This ministry performs reviews of the procurement function to
                                                                                                                                                                    related to compliance or
                                                    ensure that purchases follow the LACAP regulation. However, the reports issued by                               vulnerabilities.
                                                    this ministry are not published so that the general public is made aware of issues.
                                                   Court of Accounts. This ministry performs the financial reviews of the MARN.
                                                    However, the reports issued by this ministry are not published so that the general
                                                    public is made aware of issues.
                                                   Donor’s audits. Each individual donor may have their individual audits to ensure that
                                                    the funds are used as intended
                                           The actual process for controlling the purchases, employs the following controls: requisitions
4.5 Is there a process for controlling     are used for purchases, budget availability is checked prior to committing the funds for a       E.2.2                No issues noted
    actual purchases (e.g.: triple         purchase, goods are received by the warehouse and receipt is noted by the warehouse and
    matching, list of approvers, list of                                                                                                    Test Schedule II –
                                           the person requesting the goods, receipt of the invoice is noted (quedan) and payments           Sheet           N:
    approved        vendors,      order    (checks) require two signatures. The process does involve triple matching although it requires
    processing unit, receiving unit,                                                                                                        Schedule II-N
                                           more than 3 documents.
    budget       and      commitments
    compared,            Develop an        The actual process for controlling purchases can take one of three forms: Bidding (
    understanding).of how such controls    Licitaciones o concursos), free purchase (Procesos de libre Gestión) and direct procurement
    are enforced                           (Contrataciones directas). The process requires documentation for the actual approval of the
                                           original purchase requisition, bidding, analysis of bids or direct procurement, receiving of
                                           goods and payments to vendors. We tested these controls at 4.7 below
4.6 Confirm that the procurement           The procurement system used to track purchases open for bids is COMPRASAL. This system           Narrative: E.2.2     Issue Noted:
    system is linked with other            is usable by all government institutions as required by the LACAP law; however, there are no
    institutions carrying out government   linkages with other government functions due to several factors as further described in the                           The SAFI accounting system is
    functions                              narrative.                                                                                                            not integrated with the SIAF used
                                                                                                                                                                 by MARN nor with any of the
                                                                                                                                                                 other systems used by the other
                                                                                                                                                                 ministries.



                                                                                                                                                                                      56 

SECOND CRITERION:                           BUDGET EXECUTION
Questions to evaluate the                   Observations of the author, based on the analysis of available documents and enquiry            Reference to         Assessment of the Author
compliance with the criterion               of the entity subject to assessment                                                             documents (copy
                                                                                                                                            attached)


4.7 Make sample selections of vendors                                                                                                                            Potential issue noted:
     from the vendor master file and test   We were not able to make sample selections of new vendors from the system. The reason for       Narrative: E.2.2     1. Vendors are not maintained
     to confirm that:                       this is that MARN does not maintain the vendor master file as this is maintained by Hacienda.                           by MARN and there is no
                                            MARN only reviews vendors when processing a purchase to make sure that the vendors have         Test Schedule II –
    - New vendors were properly                                                                                                             Sheet          M:       coordination to ensure that
         approved       (approved      by   not been suspended or are in the list of those vendors that should not be used. Therefore,                              the listing is kept to date by
                                            there is no process at MARN to ensure that vendors are up to date.                              Schedule II-M
         approver with authority to                                                                                                                                 the applicable ministry (see
         approve them) and approval         Basically, there is no master list of vendors at MARN. Vendors may register in COMPRASAL                                Schedule II-M).
         was in writing                     to participate in a bidding process. However, the vendor’s list is updated by the Ministry of                        2. Vendor data from the
    - Bidding process is used when          Finance. As noted above, the LACAP authorizes “direct contracting” which does not require                                 purchase requisition system
         selecting new vendors              prior registration in COMPRASAL                                                                                           used by MARN (SIAF and
    - Vendor listing is reviewed to                                                                                                                                   Excel) is not reconciled to
         ensure that old vendors no                                                                                                                                   the accounting system (see
         longer used are deleted from                                                                                                                                 Schedule II-M).
         the listing
4.8 Make sample selections of the           We reviewed various awards, per Sheet N of the test schedule, and confirmed that the invoice    Narrative: E.2.2     Issues noted:
     purchase cycle (payments) and          matched the order and the receiving report. In fact, the awards require a receiving report as
     ensure that:                           part of the payment documentation. In addition, every award identifies an “administrator” who   Test Schedule II –   1. Time allowed for vendor
                                            is responsible to confirm receipt of goods or services according to the award terms and         Sheet L: Schedule       participation          during
    - Matching of invoice, receiving                                                                                                        II-L                    procurement is too short to
        report and order was done prior     conditions.
                                                                                                                                                                    ensure that the best bids are
        to paying for goods or services     We also confirmed that Requisitions were issued prior to the issuance of the solicitation       Test Schedule II –      received. For instance, we
        (triple matching is used)           document; however, some of these requisitions had vague specifications. We also confirmed       Sheet           N:      noted that bidding was only
    - Bidding was used in accordance        minor instances where payment was delayed for nearly 3 months after receipt of goods or         Schedule II-N           open for one day for one
        with the policies                   services.                                                                                                               procurement because it was
    - Expenses were approved in                                                                                                                                     done through (see Schedule
        accordance with the policies                                                                                                                                II-L)
        and procedures
    - Requisition orders were used in                                                                                                                            2. There is no process for
        the process                                                                                                                                                 tracking     open    orders
    - Items were recorded accurately                                                                                                                                processed through the SIAF
    - Items were recorded timely                                                                                                                                    system or manually (see
    - Vendor used was an approved                                                                                                                                   Schedule II-L)
        vendor
                                                                                                                                                                 3. Single vendor selection is not
    - For        items    requiring  an
                                                                                                                                                                    properly documented and it is
        agreement, confirm that the
                                                                                                                                                                    questionable. For instance,
        expense agree to the terms of
                                                                                                                                                                    explanations     used       to
        the agreement
                                                                                                                                                                    document the selection of a
    - Payment was processed timely
                                                                                                                                                                    single vendor stated that a
        in accordance with LACAP
                                                                                                                                                                    vendor was the best based on
        regulation
                                                                                                                                                                    discussion    with    various

                                                                                                                                                                                     57 

SECOND CRITERION:                        BUDGET EXECUTION
Questions to evaluate the                Observations of the author, based on the analysis of available documents and enquiry         Reference to         Assessment of the Author
compliance with the criterion            of the entity subject to assessment                                                          documents (copy
                                                                                                                                      attached)


   -   Vendor was paid timely in                                                                                                                              personnel and companies.
       accordance with laws and                                                                                                                               However,      the   technical
       agreements                                                                                                                                             reasons for concluding that a
   -   Quantity    and    quality   of                                                                                                                        vendor is the best one in its
       goods/services were inspected                                                                                                                          category are not documented
   -   Confirm process for preventing                                                                                                                         (e.g.: capacity compared to
       double payments                                                                                                                                        other vendors, quality, etc.)
                                                                                                                                                              (see Schedule II-L)
                                                                                                                                                           4. Payment to one sample
                                                                                                                                                              selection was made 3 1/2
                                                                                                                                                              months late (see Schedule II­
                                                                                                                                                              N)
                                                                                                                                                           5. Language for the requisition
                                                                                                                                                              sometimes is too vague for
                                                                                                                                                              the proposals (see Schedule
                                                                                                                                                              II-N)

4.9 Review tools used by MARN to         There are no tracking tools for vendors and balances payables. The tracking responsibility   Narrative: E.2.2     Issues noted:
     track vendors and balances          falls directly onto the Administrator of each award who has to certify receipt of goods or
     payables to ensure that:            services and the Finance Unit has to effect payment in a timely manner once the required     Test Schedule II –   MARN does not use any tracking
                                         documentation is submitted for processing. The LACAP requires timely payments and            Sheet           O:   tools to monitor vendors such as
    - Balances owed to vendors are                                                                                                    Schedule II-O        review of vendor’s balances, time
        aged                             penalizes any delays due to negligence. Our testing revealed that the majority of payments
                                         were done timely, i.e. not more than one or one a half month after receipt of goods or                            to process requests, aging of
    - LACAP regulation is followed                                                                                                                         payables, and so forth (See
        regarding the aging balances     services.
                                                                                                                                                           Schedule II-O).
    - Determine controls over special
        accounts to determine if items
        are processed timely
    - Determine any potential impact
        of any issues noted on the
        project
    - Vendors are paid in accordance
        with vendor agreements
    - Vendors are paid timely
4.10Review controls over recording of    We reviewed controls over recording of entries and commitments during the testing done for   None                 No exceptions noted
    commitments at MARN. Confirm if      the accounting testing.
    any entity is exempt from the
    controls and why



                                                                                                                                                                                 58 

SECOND CRITERION:                          BUDGET EXECUTION
Questions to evaluate the                  Observations of the author, based on the analysis of available documents and enquiry             Reference to         Assessment of the Author
compliance with the criterion              of the entity subject to assessment                                                              documents (copy
                                                                                                                                            attached)


4.11Assess the process for recording
    and reporting of MARN debt and         Given the impact on the project and time constraints, we were unable to test this step           None                 None
    guarantees
    - Review      the    process   and
       controls over loan guarantees
4.12Review monitoring tools available      According to our interviews, there are no monitoring tools in place to review the purchase and   Narrative: E.2.2     Issued noted at 4.9
    to government officials to monitor     disbursement cycle.
    the purchase and disbursement                                                                                                           Test Schedule II –
    cycle                                                                                                                                   Sheet           O:
                                                                                                                                            Schedule II-O
4.13Review MARN’s controls to confirm
    that public sector opportunities are   MARN does not have a policy to promote private sector participation given that its               Narrative: E.2.2     No issues noted
    open to the private sector and         responsibility ends with the publication of its business opportunities in COMPRASAL.
    confirm that:                          All opportunities are listed at COMPRASAL and some of them are published in the
    - System exists to make all            newspapers.
       opportunities known to the
       public sector
    - Different business sectors are
       encouraged to bid
4.14Review controls to mitigate the
    amount of any potential loss such      We reviewed controls to mitigate the amount of a loss such as insurance (See insurance           insurance Issue      Issues noted in Asset testing and
    as insurance, caps on checks           Issue) and two signatures required on checks (tested in cash section as noted at Cash                                 cash sections
                                           Section)                                                                                         Cash Section
    requiring additional signatures,
    additional approvals for payments
    exceeding      certain    amounts,
    controls to prevent duplicate
    payments.
4.15Confirm segregation of duties
    among the duties of requesting         We noted one instance of non-compliance in this area. See Exception 1 of Test Schedule II,       Narrative: E.2.2     Issue noted:
    services/goods,    approving     the   Section N, which reads as follows: The same individual had various roles in the award
                                           process, Mr. Jorge Quezada. He was the Requestor, participated in the evaluation process,        Test Schedule II –   The    same   individual was
    request, request and approval for                                                                                                       Sheet           N:   involved in the requisition,
    payment and receiving function         was designated as the administrator of the purchase order, signed the receiving report, and
                                           was one of the signatories on the check No. 134. However, we noted other signatures              Schedule II-N        approval of the vendor and
                                           (approvals) in the above documents                                                                                    payment.

5.   Asset management
                                           We reviewed the policies and procedures related to the asset management area for                 Schedule II-P        No issues noted
5.1 Review policies and procedures for     completeness as noted at Schedule II-P
    the asset management cycle and
    review for completeness for items


                                                                                                                                                                                       59 

SECOND CRITERION:                            BUDGET EXECUTION
Questions to evaluate the                    Observations of the author, based on the analysis of available documents and enquiry                Reference to        Assessment of the Author
compliance with the criterion                of the entity subject to assessment                                                                 documents (copy
                                                                                                                                                 attached)


    such as: bidding, use of contracts
    and agreements, monitoring of
    asset usage, controls to physically
    protect assets, physical verification,
    tagging, c\
5.2 Review process flows for the asset       We reviewed the process for asset management to evaluate its effectiveness. We noted                C.2.28 (see pages   No issues noted
    management process and evaluate          various issues as noted in the following sections.                                                  p.155-282)
    the    effectiveness    of   various
    controls used in this process

5.3 Confirm that an asset registry is        MARN implemented new software in 2010 that included a module for the asset registry and             C.2.27              Issues noted:
    used at MARN. If so, confirm that it     sub-ledger. The software utilized by MARN is the SIAF system.
    is up to date                                                                                                                                                    1) A new fixed asset module has
                                             Previous to 2010, MARN utilized the COAFI system to keep the asset sub-ledger. In 2010, the                                been implemented at MARN;
                                             asset module from the SIAF system was implemented. However, data from the COAFI system                                     however, the data from the
                                             was not uploaded from the old system to the new; instead, the data is being re-keyed                                       old system is being input
                                             manually from the old system to the new system (SIAF) – This is reported as an issue.                                      manually into the new fixed
                                                                                                                                                                        asset module rather than
                                             Currently, MARN is still in the process of re-keying the data from the COAFI system into the                               being uploaded directly into
                                             SIAF system manually. Basically, we noted that the asset registry is not up to date as noted in                            the new module in the SIAF
                                             the finding – This is reported as an issue.                                                                                system (please refer to
                                                                                                                                                                        C.2.27)
                                                                                                                                                                     2) Transferring of data to the
                                                                                                                                                                        new asset registry is only
                                                                                                                                                                        approximately 70% completed
                                                                                                                                                                        (please refer to C.2.27)

5.4 Review the results of 2 counts of        We requested the results of the asset counts for 2010 and 2009.                                     C.2.27              Issues noted:
    assets in the last 2 years. Confirm
    that any discrepancies were              We noted that MARN did not use sheets to track the asset counts done at MARN. Basically,                                1) Annual        verification    of
    investigated                             MARN utilizes the copy of the invoice and tracks them to the assets utilizing the tracking                                 existence of assets on the
                                             numbers assign by them.                                                                                                    field is not done physically as
                                                                                                                                                                        MARN       does      not   have
                                             When it comes to assets in the field, we were informed that MARN does not have the                                         sufficient logistics personnel
                                             resources to send analysts to the field to verify that each of their assets in the field is still                          to effectively control assets at
                                             operating and in existence given personnel limitations. This is especially troublesome since                               the national level (Please
                                             the major assets are kept in the field such as radars and expensive equipment.                                             refer to C.2.27 and Schedule
                                             We also performed testing to verify that some sample selections had asset tags and to confirm                              II-R)
                                             that controls functioned as intended as documented at Schedule II-R – Deficiency was noted.                             2) Documentation       supporting


                                                                                                                                                                                           60 

SECOND CRITERION:                        BUDGET EXECUTION
Questions to evaluate the                Observations of the author, based on the analysis of available documents and enquiry              Reference to      Assessment of the Author
compliance with the criterion            of the entity subject to assessment                                                               documents (copy
                                                                                                                                           attached)


                                                                                                                                                                annual asset counts is not
                                                                                                                                                                kept as support. (Please refer
                                                                                                                                                                to PA3.a and Schedule II-R.

5.5 Confirm that MARN has controls to    MARN utilizes asset numbers to ensure that assets are not misappropriated. Instead of using       C.2.27            No issues noted
    ensure that assets are not           asset tags, MARN develops asset numbers that identify the type of asset, location, person that
    misappropriated such as asset        has the asset, project and financing involved. The asset numbers are actually written on the      Schedule II-R.
    tags, physical safeguards, etc.      assets using a pen with paint.

5.6 Review and evaluate controls         We confirmed that MARN uses the following controls to ensure that assets are not misused:         None              No issues noted
    enforced at MARN to protect          they used tracking sheets for vehicles, the asset ID number includes the location of the asset,
    assets from misuse and to confirm    and asset verification is done annually.
    that they are used in its intended
    purpose

5.7 Review and evaluate controls         MARN uses insurance to cover some assets. However, the only assets insured are vehicles –
    enforced at MARN to protect          This is reported as an issue.
    assets from misappropriation

5.8 Review controls to ensure that the   We requested the reconciliations for 2010 and 2011 as of June 2012. We noted various issues       C.2.27            Issues noted:
    asset sub-ledger agrees to the GL    related to the reconciliation between the GL and the subsidiary ledger as documented in the
                                         observations’ column.                                                                             Schedule II-Q     1) The reconciliation between
                                                                                                                                                                the Fixed Asset register and
                                                                                                                                                                the GL for 2010 did not have
                                                                                                                                                                evidence of review (Please
                                                                                                                                                                refer E3 on Schedule II-Q)
                                                                                                                                                             2) Reconciliation for 2011 has
                                                                                                                                                                not been prepared as of
                                                                                                                                                                06/29/12 (Please refer to E2
                                                                                                                                                                on Schedule II-Q)
                                                                                                                                                             3) There is no evidence of
                                                                                                                                                                review/approval            of
                                                                                                                                                                reconciliations (Please refer
                                                                                                                                                                to E3 on Schedule II-Q)
                                                                                                                                                             4) Large     difference   noted
                                                                                                                                                                between the GL and the fixed
                                                                                                                                                                asset register ($354K) which
                                                                                                                                                                did not include supporting
                                                                                                                                                                documentation (Please refer

                                                                                                                                                                                 61 

SECOND CRITERION:                             BUDGET EXECUTION
Questions to evaluate the                     Observations of the author, based on the analysis of available documents and enquiry           Reference to         Assessment of the Author
compliance with the criterion                 of the entity subject to assessment                                                            documents (copy
                                                                                                                                             attached)


                                                                                                                                                                     to E4 on Schedule II-Q).

6.   Payroll                                  We reviewed the payroll policies and procedures as documented at Schedule II-S                 Schedule II-S        No issues noted
6.1 Review policies and procedures                                                                                                           C.2.28     (pages
    for the payroll process and review                                                                                                       111-153)
    for completeness
6.2 Review process flows for the              We reviewed process flows and met with personnel related to the payroll area at MARN to        Schedule II-S        No issues noted
    payroll process and evaluate the          discuss and evaluate controls related to the payroll area.                                     C.2.28      (pages
    effectiveness of various controls                                                                                                        111-153)
    used in this process such as                                                                                                             C.2.30
    controls over timeliness (records
    are recorded timely), accuracy
    (payroll records are recorded
    accurately in the accounting
    system) and validity (payroll
    records were approved).
6.3 Are payroll payments linked to the        We reviewed the payroll and time and attendance systems. WE noted that both systems are        C.2.30               No issues noted
    time and attendance or Human              not linked.
    resources systems?                                                                                                                       Schedule II-T
                                              Adjustments to employee payroll are one month behind because employee payroll is prepared
                                                       th
                                              by the 15 of each month while time and attendance reports are prepared by the end of the
                                              month. Basically, adjustments from the time and attendance report are made to the payroll on
                                              the subsequent month. We made sample selections of the payroll and tested that adjustments
                                              were made as applicable as noted at Schedule II-T.
6.4 Review controls to prevent fraud,         We reviewed and tested various controls to prevent fraud, waste and abuse as follows:          C.2.30               Issue noted:
    waste and abuse and assess their          1) Controls to ensure that payments are made to real employees: Employees sign for their       Schedule II-T        Treasury department does not
    effectiveness. This should include:           checks at the treasury department – issue noted: treasury does not keep copies of cards                         keep copies of data showing the
    - Controls        to   ensure      that       or data showing the employee signatures to confirm signatures for employees at remote                           employee signatures to confirm
        payments are made to real                 locations                                                                                                       signatures for employees at
        employees                             2) Access controls: two employees at MARN have access to the payroll and HR systems                                 remote locations. Additionally,
    - Access controls                             (SIRH). SOD is also applied as these are the only two employees processing payroll                              we reviewed pay to an employee
    - Segregation of duties                   3) Names of employees on the payroll listing are reviewed every year as the law requires                            located in a remote location and
    - Review of names shown on the                that all employees be re-hired/re-set in the payroll system every year                                          noted that the signature did not
        payroll verified by the ministry at   4) We confirmed that employee records are maintained as verified for sample selections                              match the one in the employee
        least once a year                         made                                                                                                            file.
    - Are         personal        records     5) Overtime pay is not allowed at MARN
        maintained for each employee
        showing rates of pay, sick leave
        taken, allowances, references,

                                                                                                                                                                                      62 

SECOND CRITERION:                            BUDGET EXECUTION
Questions to evaluate the                    Observations of the author, based on the analysis of available documents and enquiry             Reference to      Assessment of the Author
compliance with the criterion                of the entity subject to assessment                                                              documents (copy
                                                                                                                                              attached)


        contracts, etc?
    -   Maintaining the confidentiality of
        the records
    -   Time and attendance records
        (e.g.: timesheets)
    -   Controlling overtime pay
6.5 Assess the effectiveness of the          We confirmed that there are only two employees in charge of the payroll at MARN. One             None              No issues noted
    segregation of duties used in the        basically is responsible for processing the payroll at MARN while the other is responsible to
    payroll process                          administer the HR functions in the SIRH system. Once the payroll is prepared, it is approved
                                             by the vice-minister and the accounting department (Treasurer) for processing. The
                                             accounting department is responsible for uploading the payroll into the accounting system.
                                             Then, the ministry of finance (Hacienda) is responsible for processing the payment. Last,
                                             treasury makes the deposits directly into the employees' accounts or cuts checks (most
                                             employees are paid by direct deposits). Each employee is responsible for signing for their pay
                                             before they can receive it.
6.6 Make a sample selection of payroll
    payments to determine that:              We made sample selections of the payroll to test at Schedule II-T                                C.2.30            Issue noted:
    - Payroll       was       calculated     We noted one issue as noted in the observations column.                                          Schedule II-T     The treasury department is in
       accurately                                                                                                                                               charge of disbursing funds to
    - Payroll was recorded timely                                                                                                                               employees directly, including
    - Payroll was recorded accurately                                                                                                                           those located in remote areas.
    - Payroll was recorded in the right                                                                                                                         However, they do not have
       period                                                                                                                                                   copies     of   the  employee
    - Controls totals were used                                                                                                                                 signatures to confirm that the
    - Batches are used                                                                                                                                          appropriate person signed for
    - Payroll is approved by a person                                                                                                                           receipt of payment
       with authority and independent
       from the payroll preparation
    - Payroll preparation, approval
       and payment are segregated
    - Employees are identified before
       receiving payment
    - There is a control to confirm that
       appropriate employees received
       their payment
    - Unclaimed salaries held until
       claimed?




                                                                                                                                                                                  63 

                                                                  Appendix IV




       THIRD CRITERION: 


INFORMATION AND COMMUNICATION 





                Date of the assessment:   Completed on 10/15/12
                Author of the assessment: Ivan Magana




                                                                          64
THIRD CRITERION:                               INFORMATION AND COMMUNICATION
Questions to evaluate the compliance           Observations of the author, based on the analysis of available documents and enquiry            Reference to      Assessment of the Author
with the criterion                             of the entity subject to assessment                                                             documents (copy
                                                                                                                                               attached)


1. Information systems                         MARN - We obtained a copy of the policies and procedures for MARN and reviewed it for           Schedule III-A    No issues noted
1.1 Review policies and procedures             completeness as noted at Schedule III-A.                                                        D.2.17
    impacting the use and access to the        Hacienda – We reviewed the policies and procedures related to the SAFI accounting system
    information          systems         for   maintained by Hacienda.
    completeness. At a minimum,
    confirm that the policies include the
    following areas: use of approved
    software,      physical      safeguards
    (locks, special rooms, and alarms),
    and backups and approved used.
1.2 Confirm that there is appropriate          MARN – We reviewed the technology at MARN and noted that there is appropriate                   None              No issues noted
    technology in place for information        technology to do the tasks that the ministry is responsible to complete.
    systems         (i.e.:       accounting,   Hacienda – We reviewed the technology at Hacienda (Ministry of Finance) as Hacienda is
    procurement,        payroll,    contract   responsible for maintaining the SAFI accounting system used by most government entities in
    administration, human resources            El Salvador. During our review, we noted that there is appropriate technology to do the tasks
    and payroll)                               that the ministry is responsible to complete
    - Confirm that the information and
        accounting systems allow timely
        financial reporting
1.3 Confirm that policies and procedures       MARN –We made sample selections to test access controls and ensure that there is a              MARN:             MARN:
    provide for segregation of duties.         segregation of duties.                                                                          D.2.17            No issues noted
                                               When it comes to access granted to users at MARN, we made sample selections to confirm          Schedule III-B
    Obtain an understanding of access          that access granted to the SIAF system agrees to the users' duties as documented at
    controls to the various modules            Schedule III-B. We noted that access to the SIAF system did agree with the employee duties.                       Hacienda:
    including: payroll, assets, inventory      Hacienda – We noted that the SAFI accounting system maintained by Hacienda is used by                             Issues noted:
    management,        accounting      and     most government entities including MARN. As such, we reviewed access controls to the SAFI                         1) We noted that there were
    finance and confirm that:                  as noted at SAFI Access. We noted three exceptions related to the access testing conducted                            three users of SAFI from
    - There are clear segregation of           of SAFI as noted in the observations column.                                                                          MARN that could not be
        duties    between      authorizing     Access to SIAF:                                                                                 Hacienda:             verified      as      current
        transactions,          processing      We also noted that Hacienda performs a semi-annual review of SAFI users. We reviewed the        D.2.18                employees. We contacted
        transactions,           recording      last two semi-annual reviews performed at Hacienda as noted at D.2.18. No exceptions were       D.2.19                MARN and confirmed that
        transactions, custody of assets,       noted                                                                                                                 these were valid users as
        and reviewing transactions                                                                                                                                   they were recent additions to
    - Access is segregated based on                                                                                                                                  the payroll (See SAFI - Ex 4)
        functions                                                                                                                                                    – This exception is not
    - Access        is    managed        by                                                                                                                          reported as an issue, pass
        appropriate    personnel      (i.e.:                                                                                                                         further review.
        personnel segregated from the                                                                                                                            2) We noted one issue related to
        functions that it is supposed to                                                                                                                             a      user    role   named
        protect)                                                                                                                                                     "Sostenibilidad"    (support)


                                                                                                                                                                                     65 

THIRD CRITERION:                                INFORMATION AND COMMUNICATION
Questions to evaluate the compliance            Observations of the author, based on the analysis of available documents and enquiry                Reference to      Assessment of the Author
with the criterion                              of the entity subject to assessment                                                                 documents (copy
                                                                                                                                                    attached)


    -   Access     is   monitored  and                                                                                                                                    which has access to the
        monitoring is documented                                                                                                                                          security modules in SAFI
    -   Access    is    removed   when                                                                                                                                    even though this user should
        employees are terminated or                                                                                                                                       only support institutional (see
        leave employment                                                                                                                                                  SAFI Ex 5). We recommend
                                                                                                                                                                          that Hacienda restricts the
                                                                                                                                                                          access to Security to user
                                                                                                                                                                          21000 – This is reported as
                                                                                                                                                                          an issue
1.4 Review data controls, including:            MARN:                                                                                               D.2.16            MARN:
    physical controls, system controls,          Physical controls over the mainframe and use of passwords to access room – We evaluated            Schedule III-C    Issues noted:
    backups and disaster recovery:              physical controls over the hardware at MARN as documented at Schedule III-C. We noted               Schedule III-D    1) For MARN, we noted that
    - Evaluate physical controls over           that MARN utilizes the following controls to protect its mainframe: access to the mainframe                               backups of the system are
       computer hardware (e.g.: use of          room requires the use of cards, passwords and fingerprints; the access cards are only kept                                kept in the computer room
       special rooms, locks, safety             by two individual; the room where the mainframe is kept has a fire alarm and system to                                    rather than offsite
       features such as fire safeguards,        control fire; the floor in the room is raised to prevent humidity and there is an AC operating in                     2) we noted that a running
       access restrictions to computer          the room.                                                                                                                 mirror of the system is not
       room, are keys restricted to             Backups – We evaluated the procedures when it comes to backups of the system as                                           kept at an offsite location
       certain personnel, .)                    documented at Schedule III-D. We noted an issue as documented in the observations                                     3) We noted that MARN’s
    - Evaluate data controls such as            column. Because the backups are kept in the computer room inside the server, there is no                                  internal audit group or the SAI
       the use of passwords (evaluate           listing of backups maintained by MARN.                                                                                    responsible for conducting
       policies on passwords such as            Mirror of the systems at MARN - we noted that a running mirror of the system is not kept at                               financial audits (Corte de
       expiration, length, rules upon           an offsite location – This is reported as an issue                                                                        Cuentas) do not perform
       termination,      termination       of   IT audit – During our review, we were notified that no IT audit is performed at MARN - This is                            system audits to ensure that
       access once employees leave,             reported as an issue                                                                                                      sufficient     controls       are
       limitations on the number of             Hacienda:                                                                                                                 enforced to protect the
       attempts to use a password               Physical controls – We reviewed physical controls over the computer room at both Hacienda                                 system or to test the controls
       before locking itself, );                and Aduana related to security controls, security access to the computer room, electrical                                 to ensure that they are
    - Evaluate the backup policy and            backup, fire suppression system and humidity and water as noted at SAFI - Physical. We                                    functioning as intended
       confirm that backups are done            noted three exceptions as noted in the observations column (see #1 – 3).                                              Hacienda:
       periodically and they are kept           Backups – We reviewed controls related to SAFI backups at both Hacienda and Aduana as                                 Exceptions noted:
       offsite on a safe location on a          documented at SAFI backups. No exceptions noted during the testing.                                                   1) Air Conditioning units for
       separate building                        Password Security – We reviewed password security at both Hacienda and Aduana as noted                                    EPS1 and the tape library are
    - Confirm that MARN maintains an            at SAFI - password. We noted one exception as noted in the observations column (see #4).                                  located in the EPS2 area.
       inventory listing of all backups                                                                                                                                   This increases the likelihood
    - Confirm that hardware and                                                                                                                                           of damaged by water.
       software        inventories       are                                                                                                                              Additionally, the floor in the
       maintained,                 including                                                                                                                              EPS2 area is not raised –
       descriptions,      locations     and                                                                                                                               This is reported as an issue
       values of items                                                                                                                                                2) We noted that the flow of hot


                                                                                                                                                                                            66 

THIRD CRITERION:                           INFORMATION AND COMMUNICATION
Questions to evaluate the compliance       Observations of the author, based on the analysis of available documents and enquiry           Reference to      Assessment of the Author
with the criterion                         of the entity subject to assessment                                                            documents (copy
                                                                                                                                          attached)


                                                                                                                                                                air in EPS1 was not properly
                                                                                                                                                                controlled by a physical
                                                                                                                                                                barrier. However, the ministry
                                                                                                                                                                is currently dealing with this
                                                                                                                                                                deficiency by using other
                                                                                                                                                                types of barriers to isolate hot
                                                                                                                                                                air (using metal or wooden
                                                                                                                                                                boards) – This deficiency is
                                                                                                                                                                not reported as an issue,
                                                                                                                                                                pass further review.
                                                                                                                                                            3) The doors protecting the
                                                                                                                                                                computer room are metallic
                                                                                                                                                                and reinforced. However,
                                                                                                                                                                they do not seem to be fire
                                                                                                                                                                proof raised – This is
                                                                                                                                                                reported as an issue
                                                                                                                                                            4) Hacienda requires the SAFI
                                                                                                                                                                passwords       to      be     8
                                                                                                                                                                characters, requiring one
                                                                                                                                                                character to be a number. It is
                                                                                                                                                                worth noting that Hacienda in
                                                                                                                                                                their own manual defines a
                                                                                                                                                                strong password as one that
                                                                                                                                                                it is 15 characters in length
                                                                                                                                                                and includes a combination of
                                                                                                                                                                characters, capital letter,
                                                                                                                                                                letters and numbers – This is
                                                                                                                                                                reported as an issue
1.5 Test some application controls built   We tested some of the controls built in the SAFI system such as numerical sequence,            Schedule III-F    No issues noted
    in the systems such as:                allowing only certain dates (no backdating), deletion of prior posted entries and entries of
    - Systems allow only certain codes     only certain defined characters (e.g.: numerical entries) as documented at Schedule III-F
        or values
    - Checks for duplicate records
    - The system tracks the person
        who inputs and approves the
        data
1.6 Obtain a copy of the disaster          MARN –We requested a copy of the disaster recovery plan to perform some testing as             Schedule III-E    MARN:
    recovery plan and confirm that it is   documented at Schedule III-E. MARN does not have a disaster recovery plan as noted on                            Issues noted:
    complete by addressing:                the observations.                                                                                                MARN does not have a disaster
    - Various types of disasters           Hacienda - We reviewed continuity planning at Hacienda as noted at SAFI continuity. We                           recovery plan.


                                                                                                                                                                                 67 

THIRD CRITERION:                              INFORMATION AND COMMUNICATION
Questions to evaluate the compliance          Observations of the author, based on the analysis of available documents and enquiry          Reference to         Assessment of the Author
with the criterion                            of the entity subject to assessment                                                           documents (copy
                                                                                                                                            attached)


    -   Mitigation controls                   noted one exception as documented in the observations column (Please note that this
    -   It includes business continuity       exception was also noted).                                                                                         Hacienda:
        plans (See ADS 545 and                                                                                                                                   Issues noted:
        Business continuity planning                                                                                                                             We noted that Hacienda uses a
        reference to ADS545). The                                                                                                                                mirror site at Aduana as an
        business continuity plan should                                                                                                                          alternate site in case of an
        include at a minimum: identify                                                                                                                           emergency. However, this site is
        critical systems and resources,                                                                                                                          only located 23 kilometers away
        potential    threats,   preventive                                                                                                                       from the site at Hacienda and this
        controls,               delegating                                                                                                                       distance is not sufficient to
        responsibilities and validating the                                                                                                                      mitigate the risk of some events
        business plan.                                                                                                                                           such as an earthquake – This is
    -   It provides a plan for offsite                                                                                                                           reported as an issue – We
        backup and recovery                                                                                                                                      recommend that Hacienda either
                                                                                                                                                                 select a remote site or consider an
                                                                                                                                                                 alternative such as cloud storage
1.7 Confirm that training has been            MARN –see issue noted above on 1.6                                                            MARN:          See   MARN: See section 1.6 above
    provided on the disaster recovery         Hacienda – We confirmed that Hacienda has provided training on the disaster recovery plan     section 1.6 above
    plan to the appropriate personnel         and that the plan is tested at least annually. No exception noted.
1.8 Review      the   human      resource     We noted that the Human Resources system is integrated with the payroll system (SIRH).        None                 No issues noted
    information     system      and    its    Although the SIRH system is not integrated with the accounting system (SAFI), data from the
    integration with the Payroll and          payroll system is uploaded after the payroll is prepared and approved to the SAFI system.
    Financial      Administration     and
    Accounting Systems
1.9 Review the purchasing information         When it comes to Purchases made by MARN, they are maintained either in Excel schedules        D.2.16               Issue noted in the purchasing
    system and its integration with the       or the SIAF systems (this is noted as an issue in the purchasing testing area). During our                         section
    Financial      Administration     and     testing of the procurement area, we also noted that there is no reconciliation between the
    Accounting Systems                        purchase requisitions maintained manually using Excel, SIAF and the ones recorded in the
                                              accounting system (this is noted as an issue in the purchasing testing area).
1.10Review the asset management               We noted that the asset management system (SIAF) is not integrated with the accounting        See the asset        See the      asset   management
    system and its integration with the       system                                                                                        management           section
    Accounting Systems                                                                                                                      section
2. Audit Process:                             MARN:                                                                                         MARN:                MARN:
2.1 Assess the external and internal          We reviewed the internal audit function at MARN as documented in the narrative at D.2.1,      Narrative: D.2.1     No issues noted
    audit         capabilities,    their
    complementarity and coverage to           Internal auditor and two technicians. However, we noted that they lacked the IT audit         Corte de             Corte de Cuentas:
    ensure effectiveness of MARN’s            coverage as noted at 2.7 in this section (see PA3.a).                                         Cuentas:             Issues noted as follows:
    internal control framework                                                                                                                                   1)
                                              Corte de Cuentas:
                                              We performed a limited review of the financial audit function which is managed by the Corte

                                                                                                                                                                                      68 

THIRD CRITERION:                            INFORMATION AND COMMUNICATION
Questions to evaluate the compliance        Observations of the author, based on the analysis of available documents and enquiry              Reference to           Assessment of the Author
with the criterion                          of the entity subject to assessment                                                               documents (copy
                                                                                                                                              attached)


                                            de Cuentas (the supreme audit institution) as documented in the narrative.
2.2 Review process flows for the audit      As documented in the narrative the process flow for the audit document obeys the following        Narrative: D.2.1       No issue noted in this testing
    process      and      evaluate the      cycle:                                                                                            Procedures       for
    effectiveness of various controls             1)    The audit report is prepared semiannually.                                            internal   auditing
    used in this process.                         2)    The report is sent to the Minister in draft and final.                                D.2.9
                                                  3)    The report is reviewed by the Minister.
                                                  4)    The report is sent to the supreme audit institution
                                            According to the “Procedures manual for internal auditing” (pg. 7) the process flow for the
                                                  audit is:
                                                  1) Planning stage.
                                                  2) Execution
                                                  3) Audit report
                                                            a. Prepare draft report (pg. 13)
                                                            b. Read the draft report to the audited areas to have their input.
                                                            c. Check that recommendations are been followed.
                                                            d. Final report
                                                  4) Follow up
2.3 Assess the effectiveness of the         1. As documented in the narrative and in the testing schedule, the internal audit department      1. Narrative: D.2.1    Issues noted:
    internal audit function:                is not independent. Specifically, we noted that the department reports directly to the Minister   2. Procedures for      1. The internal audit department is
    - Confirm that it is independent in     without having to report to an audit committee independent from the minister.                     internal   auditing        not independent. Specifically,
        fact                                2. As documented in the testing schedule, the internal audit function has an internal control     D.2.9 and testing          we noted that the department
    - Confirm that it has an internal       manual.                                                                                           schedule      D.2.2        reports directly to the Minister
        audit manual                        3. There is not a manual of internal controls applicable to MARN. Internal controls are           (G-1)                      without having to report to an
    - Confirm that there is a manual of     described briefly in section 2.1.7 (pg. 4) of the internal control procedures manual.             4. Email dated             audit committee independent
        internal controls applicable to     4. Auditors receive training included in the SAI’s annual training plan from the Supreme Audit    7/2/12         from        from the minister.
        MARN                                Institution once or twice a year. On the other hand, they receive some training from the          Lorena       Flores    2. There is not a manual of
    - Confirm that auditors received        Ministry of Finance, new fiscal reforms or LACAP. MARN doesn’t have the funds for training.       D.2.14                     internal controls applicable to
        sufficient training                 Sometimes they have to pay for their trainings.                                                                              MARN.
                                                                                                                                                                     3. Auditors don’t receive sufficient
                                                                                                                                                                         training.
2.4 Assess the internal and SAI’s audit’s   As stated in the narrative, eexternal audits are carried out by the supreme audit institution
    independence of management and          and they report directly to the Legislative Assembly of the Republic. The document prepared
    its     effectiveness   given     any   by the supreme audit institution is sent to the Minister first for his revision. He can make
    independence issues                     changes to the report if necessary. Considering this, we may say that they have a certain
      - Is the SAI independent of the       level of independence but not complete independence.
        executive?
      - What is its mandate?
      - Does it have its own fiscal
        database?
      - Does the scope of the external

                                                                                                                                                                                          69 

THIRD CRITERION:                              INFORMATION AND COMMUNICATION
Questions to evaluate the compliance          Observations of the author, based on the analysis of available documents and enquiry                Reference to         Assessment of the Author
with the criterion                            of the entity subject to assessment                                                                 documents (copy
                                                                                                                                                  attached)


        audit include all major public
        sector entities?
     - Does the entity have clear
        procedures to report the internal
        control weaknesses?
     - Does management issue an
        annual report/declaration on its
        assessment of the internal
        control environment?
     - If no SAI exists, by who (if at all)
        are external audits performed?
            External professional audit
             firms?
            Audit bodies from other
             organizations?
            Other?
2.5 Make a selection of MARN’s prior          Internal Audit: The report is effective, issues, vulnerabilities, and internal control weaknesses   - Audit Report No.   Issues noted:
    internal and external audit reports       are included in the audit report and transmitted to the audited area in an acceptable period of     115-10-10 D.2.8      1. In the Internal Audit follow up
    and evaluate                              time, but recommendations and follow up on recommendations are not addressed timely.                - Test schedule:        recommendations Matrix (see
    - The reports effectiveness               Internal control weaknesses are identified during the audit but they are not addressed timely.      D.2.2 (H-D)             attached pdf document) two
    - Issues or vulnerabilities are           In audit report No. 115-10-10 the follow up of recommendations was done when the next                                       projects (115-10-10 & 118-05­
        addressed timely                      audit report is prepared (1 year after).                                                            - Internal Audit        11) are on hold, they stated that
    - Recommendations                   are                                                                                                       Follow up Matrix        they are going to follow up on
        addressed timely                                                                                                                          D.2.11                  this recommendation on 2012,
    - Review the issues noted in the                                                                                                                                      month is not specified. Lic.
        reports for their potential impact                                                                                                        - Email dated           Lorena de Rubio stated in the
        to the project and determine if       External Audit (Open)                                                                               7/2/12 from             attached     email     that     the
        such      issues     have      been                                                                                                       Lorena Flores           procedures manual does not
        addressed timely.                                                                                                                         D.2.12                  establish a due date to follow up
    - Confirm that internal control                                                                                                                                       recommendations.
        weaknesses are identified during                                                                                                                               2.     We     selected     2    audit
        the audit and they are addressed                                                                                                                                  recommendations from audit
        timely                                                                                                                                                            report      No.        115-10-10;
    - Does MARN have the capacity to                                                                                                                                      recommendations 1 & 2. They
        review and respond to SAI                                                                                                                                         have not given follow up to
        findings timely and effectively?                                                                                                                                  these           recommendations
                                                                                                                                                                          according to the matrix for follow
                                                                                                                                                                          up of recommendations (see
                                                                                                                                                                          attached pdf file pg. 19/61). Lic.
                                                                                                                                                                          de Rubio stated in the attached


                                                                                                                                                                                              70 

THIRD CRITERION:                              INFORMATION AND COMMUNICATION
Questions to evaluate the compliance          Observations of the author, based on the analysis of available documents and enquiry             Reference to          Assessment of the Author
with the criterion                            of the entity subject to assessment                                                              documents (copy
                                                                                                                                               attached)


                                                                                                                                                                      email that the procedures
                                                                                                                                                                      manual does not establish a due
                                                                                                                                                                      date     to    follow  up    on
                                                                                                                                                                      recommendations and that they
                                                                                                                                                                      follow up on recommendations
                                                                                                                                                                      when they perform the next
                                                                                                                                                                      audit. (See note i).
2.6 When it comes to the periodic             The periodicity coverage for audit varies from 6 months to 2 years as noticed in audits tested   Narrative: D.2.1      No issue noted.
    coverage of audits, evaluate:             No (118-05-11, 112-09-10, and 115-10-10). As documented in the narrative, they perform a
    - What is the periodicity/targeted        bi-annual financial and administrative evaluation.
        coverage of audits?                   As documented in the narrative, every audit report is sent to the supreme audit institution.
    - To what extent are audits carried       The law requires considering the financial statements while conducting an audit.
        out?
    - Are the annual financial                Audit plans are conducted by the internal audit area.
        statements regularly presented to
        an SAI or similar body?
2.7 When it comes to the type of audits,      As documented in the narrative, the types of audits being performed are:                         Narrative: D.2.1      We noted that IT audits are not
    evaluate:                                    a) The financial statements (Internal control, financial and compliance with laws). This is   Email        dated    conducted by the internal audit
     - What types of audits are being                 documented in the testing schedule (H).                                                  6/28/12        from   function. This is confirmed by an
        performed: financial, internal           b) Check if fractional purchases were done (because they are not permitted), if there is      Lorena       Flores   email sent by Internal Auditor
        controls, compliance,                         competition among suppliers and if the bidding process is transparent.                   D.2.15                Chief (answer # 3).
        performance, specific subject            c) Audit of project funds.
        audit, IT audits, special projects,      d) Other audited funds: sale of natural products and SNET.
        procurements, vendors, other?         We noted that IT audits are not conducted by the internal audit function.
2.8 Obtain other reports or related           MARN:                                                                                            Narrative: D.2.1      Issue noted:
    reports for the last three years to       As noted in the management control section, MARN does not have a risk assessment                 Audit reports:        We noted that MARN does not
    inform the risk assessment process        process performed by government officials.                                                       No. 118-05-11 pg.     have a risk assessment process
    relative to the areas being assessed      As stated in the testing schedule, from the sample selected we noted that the reports or tools   5, D.2.6              performed     by   government
    and to the proposed implementation        are not used effectively because the issues or vulnerabilities are not addressed timely.         No. 112-09-10 pg.     officials.
    mechanism and evaluate that:              These audits selected (See: No. 118-05-11 pg. 5, No. 112-09-10 pg. 5, and 115-10-10 pg. 7),      5, and D.2.7
    - The reports or tools are used           have a small section to inform about risk assessment process relative to the areas being         No. 115-10-10 pg.     SAI:
        effectively                           assessed.                                                                                        7 D.2.8               The SAI does not establish
    - Issues or vulnerabilities are           As stated in the narrative risk assessment is performed according to the following:                                    timeframes     for    completing
        addressed timely                       -    The valuation of the risk assessment is established in the official journal.                                     government audits. The audit
                                               -    The regulation states that the Minister and his team must evaluate the risk. Including                           report for MARN for the period
                                                    what are the risks and how to mitigate them.                                                                     ended December 31, 2009 was
                                               -    The internal audit has to audit what is established by law.                                                      published in February 2012 (26
                                               -    According to the law there is a committee of public ethics which is headed by human                              months later) and the report for
                                                    resources, but is outside the scope of internal audit.                                                           the period ended December 31,
                                               -    If it there is lack of material, the ministry may request them an audit.                                         2010 was published on May 2012

                                                                                                                                                                                         71 

THIRD CRITERION:                            INFORMATION AND COMMUNICATION
Questions to evaluate the compliance        Observations of the author, based on the analysis of available documents and enquiry                Reference to          Assessment of the Author
with the criterion                          of the entity subject to assessment                                                                 documents (copy
                                                                                                                                                attached)


                                            -    If there are some other anomalies, the Ministry may also request an audit.                                           (17 months later

                                            SAI:
                                            We reviewed the audits conducted by the SAI of MARN and found no evidence to indicate
                                            that audits conducted by the SAI need to be completed within an established time frame. For
                                            instance, the audits for the period ended December 31, 2009 was published on February
                                            2012 and the one for the period ended December 31, 2010 was published on May 2012.
2.9 Evaluate the effectiveness of           MARN:                                                                                               No. 115-10-10 pg.     Issue noted:
    MARN’s follow-up process for            For internal audit findings MARN’s follow up process is not good. As documented in the              7 D.2.8 pg. 22        MARN:
    internal and external audit findings    narrative, they perform a follow up of the findings at the end of the fiscal year to be sure that   Email        dated    We        noted      that      audit
                                            they are solved. As observed in audit report No. 115-10-10 pg. 22, and documented in email          6/29/12        from   recommendations are not followed
                                            sent by internal auditor, follow up of recommendations are done when the next audit report is       Lorena       Flores   up on time.
                                            prepared (1 year after).                                                                            D.2.12                SAI:
                                                                                                                                                                      Corte de Cuentas is the supreme
                                            SAI:                                                                                                                      audit institution (SAI) responsible
                                            We reviewed the policies and procedures from the SAI and discussed them with MGT and                                      for carrying out the audits of
                                            noted that according to the SAI, the rules state that the results of the audit are to be made                             government institutions. During
                                            public, but this is understood as the audits being made available to public officials via access                          our review, we noted that results
                                            to the reports at the Court of Accounts building. The results of the audits are not published so                          of the audits conducted by the SAI
                                            the public is not made aware of the results – This is reported as issue #1                                                are not made public although the
                                                                                                                                                                      law states that the audits are to be
                                                                                                                                                                      made public. Per the SAI, the
                                                                                                                                                                      GOES interpretation of the
                                                                                                                                                                      wording “made public” is to be
                                                                                                                                                                      conducted by a public institution
                                                                                                                                                                      and be made available to public
                                                                                                                                                                      officials
2.10Evaluate MARN’s effectiveness and       For internal audit findings MARN’s follow up process is not good. As documented in the              No. 115-10-10 pg.     Issue noted:
    timeliness in adopting internal         narrative, they perform a follow up of the findings at the end of the fiscal year to be sure that   7 D.2.8 pg. 22        We        noted      that      audit
    control recommendations                 they are solved. As observed in audit report No. 115-10-10 pg. 22, and documented in email          Email        dated    recommendations are not followed
                                            sent by internal auditor, follow up of recommendations are done when the next audit report is       6/29/12        from   up on time, as a consequence, the
                                            prepared (1 year after).                                                                            Lorena       Flores   reports are not used effectively
                                                                                                                                                D.2.12                and issues or vulnerabilities are
                                                                                                                                                                      not addressed timely.
2.11Evaluate the capacity of the auditors   MARN:                                                                                               Narrative: D.2.1      Issue noted:
    and determine that auditors are:        As documented in the narrative, the Profile of employees currently employed is:                                           MARN:
    - Independent, objective, impartial     -    Internal auditor: 5 years of experience in the MARN.                                                                 The internal audit department is
    - Possess the necessary                 -    Technician: 5 years of experience in ISNA, he also had experience in internal audit and                              not independent. Specifically, we
       professional competence in the            accounting.                                                                                                          noted that the department reports
       audit field                          -    Technician: 1 year of experience but he did not have experience in public auditing.                                  directly to the Minister without

                                                                                                                                                                                           72 

THIRD CRITERION:                              INFORMATION AND COMMUNICATION
Questions to evaluate the compliance          Observations of the author, based on the analysis of available documents and enquiry              Reference to          Assessment of the Author
with the criterion                            of the entity subject to assessment                                                               documents (copy
                                                                                                                                                attached)


                                              -    The internal auditors are not independent because they have to report to the minister.                             having to report to an audit
                                                                                                                                                                      committee independent from the
                                              SAI:                                                                                                                    minister.
                                              We noted that the president of the SAI are politically appointed by the legislature and this                            SAI:
                                              raises questions about its independence.                                                                                Officials of the SAI are politically
                                                                                                                                                                      appointed by the Legislative
                                                                                                                                                                      Assembly, which may raise
                                                                                                                                                                      doubts about the SAI’s
                                                                                                                                                                      independence
2.12Evaluate how audits of programs are       As documented in the narrative:                                                                   Narrative: D.2.1      Issue noted:
    managed. Determine by whom are            Generally with projects, the organization states in the agreement or contract if the funds will   Email        dated    The audit firm should be selected
    these audits carried out:                 be audited by a sub-contracted auditing firm. The funds for these audits are provided by the      7/2/12         from   by the donor not by the recipient,
     - Auditors appointed by the              donor. The selection of the audit firm is done by the MARN through UACI and the project           Lorena       Flores   this      generates      lack        of
       implementing partner?                  coordinator. If this is not set in the contract or agreement, the audit is carried out by the     D.2.14                independence.
     - Auditors appointed by the              internal audit of the Ministry. Lic. Rubio (MARN Internal auditor) said that they select which
       procuring entity?                      audit they are going to do according to the following parameters:
                                                   1)    Date of finalization of the contract or agreement.
                                                   2)    According to the percentage of implementation (they generally choose 2 projects).
2.13Does MARN perform audits of               As documented in the email from Lic. Lorena Flores, MARN does not perform audits of               Email       dated     Issue noted:
     partners and/or vendors? If so,          partners and/or vendors.                                                                          7/2/12        from    MARN does not perform audits of
     please confirm the following:                                                                                                              Lorena      Flores    partners and/or vendors.
   -     Who performs such audits?                                                                                                              D.2.14
   -    What standards are used for
        such     audits?     (International
        standards)
   -    How are the results tracked?




                                                                                                                                                                                             73 

                                                            Appendix IV




FOURTH CRITERION:

   COMPLIANCE 





         Date of the assessment:	   Completed on 09/20/12
         Author of the assessment: I	van Magana,
                                    Blanca Ibarra,
                                    Juan Carlos Rivas




                                                                    74
1.     Compliance         with     laws  and     We reviewed compliance with laws and regulations as noted in the narrative.                  E.2.2             Issues noted in the audit and
       regulations:                              MARN does not have any tools used to monitor compliance with laws and regulations or                           procurement sections
1.1.    Obtain      an     understanding    of   track compliance. As discussed in the procurement and audit sections, there is enforcement
        MARN’s requirements and policies         of the law by internal audit and procurement controls
        to comply with GOES’s laws and
        regulations
        - Review mechanisms or tools
           used by MARN to track
           compliance
        - Review mechanisms or tools
           used to understand applicable
           laws
1.2.    Verify MARN’s compliance with            This was tested in the procurement section                                                   E.2.2             Issues noted in the procurement
        GOES’s public procurement law                                                                                                         Compliance with   section
        (LACAP) and regulations, the AFI                                                                                                      laws
        law and its regulations
        - What is required by law?
        - How is it complied with?
        - Is the public procurement law
           accessible to the public?
        - Does the law apply to all public
           bodies, sub-national
           governments and entities when
           budget funds are used?
        - Does the law cover goods, works
           and services?
        - Have implementing regulations
           and sample documents been
           prepared to aid procuring entity
           compliance? (CPIs)
        - Are spending ministries and sub-
           entities familiar with (and
           generally compliant with) the
           law?
1.3.    Based on the first assessment,           This was tested in the procurement section                                                   E.2.2             Issues noted in the procurement
        understand       and     assess   the                                                                                                                   section
        potential impact of local law on the
        program, such as:
        - Potential impact of delays caused
           by laws such as LACAP
1.4.    Verify that MARN monitors vendors        MARN does follow compliance with agreements by vendors when it comes to goods and/or                           Issue noted:
        for compliance with laws and             services impacting GOES funds. However, compliance by vendors with donor agreements                            MARN      personal    lack     the
        regulations when applicable              seems to be the responsibility of auditor working on behalf of donors. Vendor compliance                       knowledge      of      regulations


                                                                                                                                                                                     75 

     - Confirm how vendor compliance            with terms of agreements with donors seems to be an area lacking strength since personnel                          applicable to USAID agreements.
        is monitored?                           do not seem to be as familiar with required regulations from agreements.                                           USAID needs to strengthen their
     - Have vendor audits been                                                                                                                                     capacity and understanding of what
        conducted?                                                                                                                                                 rules and regulations need to be
     - Confirm if a standard form is                                                                                                                               enforced and followed by sub-
        used for vendors and the form                                                                                                                              recipients and third parties used by
        includes all applicable regulations                                                                                                                        MARN.
1.5. Verify         compliance           with   We met with personnel and documented our understanding of compliance with laws and               Compliance with   Issues noted in the Management
     transparency and anti-corruption           regulations as documented in the narrative (see Compliance with laws )                           laws              controls section.
     laws                                       When it comes to the transparency law, we documented our review of the law and testing           Ethics req
     - Develop an understanding of              related to it in the section “Management Controls”                                               Ethics II
        what the law requires
     - Confirm        that     MARN      has
        established good mechanisms to
        communicate any issues with the
        applicable agency
     - Confirm that the agency in
        charge      of     prosecutions    is
        properly functioning and that
        prosecutions          have      been
        conducted
     - Confirm that the results of any
        prosecutions have been made
        public
     - Confirm that the laws set forth
        actions that can be taken against
        various types of behavior such as
        conflicts of interest, fraud,
        unethical behavior and so forth
     - Does the government have an
        active anti-corruption program
        aimed       at       engaging     all
        stakeholders and inform them of
        their rights and duties?
1.6. Identify laws and regulations that         During our discussions with personnel, we were told that according to local law, laws may be     E.2.2             Issue noted:
     are relevant to the Program:               applicable to the project if the donor elects to have local law apply; otherwise, the law that                     USAID needs to define the
     - Confirm the impact of such laws          applies is the one designated on the agreement. As such, the local law that may apply would                        applicable law that needs to be
        to the program                          be all local laws (e.g.: LACAP, Transparency) or the applicable US laws and regulations                            enforced in the agreement.
     - Confirm that training is provided
        to employees
2. Donor           Relationships         and    When it comes to procurement, bidding, vendor selection and publication of results; it was       E.2.2             Issues noted in the procurement
    Performance Controls:                       tested in the procurement section                                                                                  section
2.1 Review procurement planning,


                                                                                                                                                                                         76 

      including product selection,
      quantification, budgeting, and cost
      estimation, including:
      - Determine that vendor selection
        requires bidding
      - Confirm that bidding requires
         public announcements
      - Confirm that the vendor selection
         process is open and transparent
      - Does the law require publication
         of business opportunities and
         contract awards
      - Is adequate time provided for
         offers to prepare and submit
         bids?
      - Does the law allow discrimination
         against firms for reasons other
         than lack of qualifications? For
         example, excessive preferences
         granted to local firms, how SOEs
         are treated, etc.
2.2   Review controls over contract         When it comes to use of standard agreements, we confirmed that MARN does develop their   E.2.2   No issues noted
      awards (e.g.: use of proper           own standard agreements with vendors. However, USAID would have to require compliance
      instruments such as agreements or     with US laws and confirm that MARN does include the applicable language in their local
      contracts, complete documentation,    agreements.
      supporting documentation, etc.)
      - Confirm that standard documents
        are available for use
      - Review controls to ensure that
        vendors comply with their
        requirements
      - Review guidelines used by
        MARN to confirm that financial
        and legal requirements (local and
        international) are followed by
        recipients or vendors
      - Are audits required of recipients
        in accordance with donor
        agreements?
      - Develop an understanding of how
        vendor compliance is followed by
        employees (i.e.: are employees
        from the project or MARN used to


                                                                                                                                                               77 

        monitor performance?)
2.3   Develop an understanding of the          During our meetings, we noted that there is only one donor that it is relying on the GOES       See page 48 and   No issues noted
      current utilization of country           host country system. Specifically, it is the government of Spain through the agency known as    50 of E.2.3
      systems by other donors:                 AECID.
      - What is the proportion of foreign      When it comes to 2011, the total budget for all projects was $14.8M while AECID’s aid
        aid by all donors managed by           totaled approximately $1M.
        use of national country system
      - Do donors provide sufficient
        financial information for
        budgeting, tracking and reporting
2.4   Assess contract management               Contract management for projects is usually handled at MARN manually by using Excel             None              No issues noted
      during implementation, including         unless a project requires the use of a certain packaged software.
      dispute resolution methods
      - How are contracts managed?
      - What system is used for contract
        administration?
      - Assess the potential impact of
        their contract management on
        the project
2.5   Develop an understanding of how          As noted in the audit section, project results are not tracked. Project results are basically   E.2.2             No issues noted
      project results are tracked of project   prepared as required by the donor and the documentation is made available to the donor if
      including timeliness and on-budget       required by the agreement or prepared by personnel fully dedicated to the program if
      deliverables                             required by the donor agreement.
      - Review tools used to monitor
        project deliverables
      - Is the accounting system used to
        prepare fund accountability
        statements or are they prepared
        manually?
      - How is performance monitored?
      - Who is responsible for monitoring
        performance (e.g.: employees of
        MARN or the project?)
2.6   Assess the capacity of MARN to           Currently, MARN does not have the employee capacity to monitor all facets of the project        Issue on          Issue noted:
      plan, execute, monitor, evaluate,        management.                                                                                     compliance        It appears that MARN internal
      and report on all facets       of                                                                                                                          systems require strengthening in
      project management                                                                                                                                         terms of additional staff, office
      - Understand the capacity of the                                                                                                                           space, equipment, and training.
        employees used to track project                                                                                                                          This situation has led that other
        performance                                                                                                                                              donors subscribe independent
                                                                                                                                                                 agreements (See Issue on
                                                                                                                                                                 compliance)



                                                                                                                                                                                       78 

2.7   Make a sample selection of projects
      developed by MARN for other           Given time constraints, we were unable to complete this section                                 None
      donors and test the following:
      - Confirm that projects were
         completed timely
      - Confirm that project deliverables
         were completed as required by
         the agreements
      - Assess MARN’s process for
         monitoring completion of the
         projects in accordance with
         agreements or contracts
      - Assess the impacts of any
         lessons learned from other
         projects
2.8   Assess MARN”s capacity to                                                                                                                                 Issue noted:
      develop “Lessons Learned Studies”     MARN does not have a process by which they examine issues raised during program                 E.2.2               MARN does not take ownership of
      and apply them to other projects to   evaluations and apply them as Lessons’ Learned. Furthermore, MARN does not take                                     projects funded by donors as they
      increase their capacity, efficiency   ownership of donor projects where they allocated resources in their budget by project nor tie                       do not receive the reports and
      and effectiveness                     their budgets to achievement of goals and projects.                                                                 apply them as lessons learned.
      - Review other projects to confirm
         that lessons learned have been
         prepared for other projects
2.9   Assess organizational structure and                                                                                                                       Issue noted:
      staffing needs related to the         Currently, MARN does not have the employee capacity to monitor all facets of the project        Issue         on    It appears that MARN internal
      requirements to be imposed by         management.                                                                                     compliance          systems require strengthening in
      virtue of the project under                                                                                                                               terms of additional staff, office
      consideration                                                                                                                                             space, equipment, and training.
      -                                                                                                                                                         This situation has led that other
                                                                                                                                                                donors subscribe independent
                                                                                                                                                                agreements     (See   Issue    on
                                                                                                                                                                compliance)
2.10 Assess controls used by MARN to
     confirm compliance with donor          As previously documented, there is no committee to track results of projects or compliance      See         other   Issues noted above
     agreements and applicable US           with agreements                                                                                 sections above
     laws
     - Is there a committee to review
       results of projects?
     - How is compliance with
       agreements with multiple donors
       enforced?
2.11 Assess the feasibility of
     management of donor funds              As previously discussed, special accounts require that funds managed by use of separate         E.2.2               Potential issue noted at single


                                                                                                                                                                                     79 

     through separate accounts (e.g.:       bank accounts. Furthermore, special funds require that separate budget accounts be tracked.                            account
     special accounts)
     - Assess budgetary controls for        Currently, there is a special project related to the SAFI law and system that is considering the
        this separate accounts              application of a single account rather than the use of various bank accounts. The application
     - Assess how local laws impacts        of a single account may impact the project depending on how the law is modified in the future
        special accounts                    requiring that all funds go to the general fund.
     - Are special accounts exempt
        from local budgetary law (e.g.:
        prevent unused funds from being
        swept to the local budget)
2.12 Assess the feasibility of satisfying
     audit requirements related to donor    This was tested in the audit section                                                               See audit section   See issues noted in the audit
     funds in accordance with GOES                                                                                                                                 section
     laws and regulations
     - Review how audits are enforced
     - Confirm that the auditors are
        independent of MARN
2.13 Has the entity identified minimum
     internal controls required of          This was tested in the audit section                                                               See audit section   See issues noted in the audit
     implementing partners and vendors                                                                                                                             section
     in accordance with donor
     agreements? Assess tools used by
     the entity to check minimum
     internal requirements (e.g.: use of
     contracts, vendor audits, recipient
     audits, etc.)




                                                                                                                                                                                     80 

